NOVEMBER 19, 2013
  AUDIT REPORT




                                                      OFFICE OF AUDITS




        NASA’S USE OF AWARD-FEE CONTRACTS




                                           OFFICE OF INSPECTOR GENERAL




                                                      National Aeronautics and
                                                          Space Administration




  REPORT NO. IG-14-003 (ASSIGNMENT NO. A-12-021-00)
Final report released by:




Paul K. Martin
Inspector General




Acronyms

AFES         Award Fee Evaluation System
ATMS         Advanced Technology Microwave Sounder
COTR         Contracting Officer’s Technical Representative
DOD          Department of Defense
FAR          Federal Acquisition Regulation
FDO          Fee Determination Official
FY           Fiscal Year
GAO          Government Accountability Office
GOES         Geostationary Operational Environmental Satellites
HQ           Headquarters
OIG          Office of Inspector General
OMB          Office of Management and Budget
PIC          Procurement Information Circular
SOFIA        Stratospheric Observatory for Infrared Astronomy


                                                                  REPORT NO. IG-14-003
NOVEMBER 19, 2013




                                                                                       OVERVIEW

                    NASA’S USE OF AWARD-FEE CONTRACTS

                                                                                         The Issue

  The Federal Acquisition Regulation (FAR) outlines the contract vehicles available to
  Federal agencies for acquiring goods and services, including fixed-price contracts and
  cost-reimbursement contracts. In fixed-price contracts, the contractor agrees to deliver a
  product or service at a price not to exceed an agreed amount. Agencies generally use
  fixed-price contracts when costs and risks can be clearly defined, for example when
  purchasing commercially available items such as laptop computers. In contrast, in cost-
  reimbursement contracts the agency agrees to pay for all allowable costs the contractor
  incurs in delivering the service or product. Cost-reimbursement contracts involve
  increased risk for the Government and are generally more appropriate when performance
  uncertainties or the likelihood of changes make it difficult to accurately estimate costs in
  advance. Because this describes many NASA projects, such as development of
  spacecraft, cost-reimbursement contracts are quite common at NASA.

  Incentive contracts are a type of contract in which a predetermined amount of money is
  set aside for the contractor to earn based on its performance. Properly structured
  incentive contracts can reduce the risk of cost overruns, delays, and performance failures
  by providing a well-performing contractor the opportunity to earn additional money.

  Award-fee contracts – which NASA has used since the 1960s – are one type of incentive
  contract. An award fee is a pool of money a contractor may earn in whole or in part by
  meeting or exceeding predetermined performance criteria. NASA uses award-fee
  contracts to motivate contractor performance and as a means to periodically evaluate that
  performance. However, in past audits the NASA Office of Inspector General (OIG)
  found that award-fee amounts did not conform to NASA policy, the Agency used these
  contracts when another contract type would have been more appropriate, and the
  contracts did not in fact motivate improved contractor performance.1 Similarly, the
  Government Accountability Office (GAO) has consistently reported that Federal agencies




  1
      NASA OIG, “Final Memorandum on Audit of the Stratospheric Observatory for Infrared Astronomy
      (SOFIA) Program Management Effectiveness” (IG-09-013, March 27, 2009); “NASA Should
      Reconsider the Award Evaluation Process and Contract Type for the Operation of the Jet Propulsion
      Laboratory” (IG-09-022, September 25, 2009); and “Review of NASA’s Microgravity Flight Services”
      (IG-10-015, June 18, 2010).



REPORT NO. IG-14-003
                                                                                                          OVERVIEW



     paid contractors billions of dollars in award fees regardless of acquisition outcomes.2
     GAO also found that agencies had not compiled data, conducted analyses, or developed
     performance measures to evaluate the effectiveness of award fees.

     In December 2007, the Office of Management and Budget (OMB) issued guidance aimed
     at improving the use of award-fee contracts.3 The guidance includes limiting
     opportunities for contractors to earn fees not awarded in one period in subsequent award
     periods, linking award fees to acquisition outcomes, designing evaluation criteria to
     motivate excellent performance, and not paying for unsatisfactory performance. In
     response to GAO recommendations and OMB guidance, NASA revised its policies in an
     effort to support increased accountability and effectiveness when using award fees.
     Additionally, the NASA Assistant Administrator for Procurement requires staff to obtain
     his prior approval before entering into award-fee contracts.

     We initiated this audit to determine whether NASA was effectively using award fees to
     motivate contractor performance and improve acquisition outcomes. To accomplish our
     objectives, we identified 186 NASA award-fee contracts with obligations made in fiscal
     years (FY) 2009 through 2011.4 From the 186 contracts, we statistically selected a
     random sample of 45 with estimated costs and available award fees of approximately
     $44.3 billion. Details of the audit’s scope and methodology are in Appendix A.

     Results

     We found that although NASA implemented processes intended to improve contractor
     performance and acquisition outcomes, a number of questionable practices, including
     overly complex award-fee formulas and a contract clause designed to hold contractors
     accountable for the quality of the final product that disregards interim performance
     evaluations, have diminished the effectiveness of award-fee contracts at the Agency. In
     addition, NASA failed to collect required data on award-fee contracts, reducing its ability
     to measure their effectiveness. We identified incorrect payments and questioned costs
     totaling $69.7 million.5 We also concluded that NASA expended approximately
     $7.4 million to administer performance evaluations on contracts for which performance
     objectives were undefined, determinations that an award-fee contract was the most


     2
         GAO, “Defense Acquisitions: DOD Has Paid Billions in Award and Incentive Fees Regardless of
         Acquisition Outcomes” (GAO-06-66, December 19, 2005); “NASA Procurement: Use of Award Fees
         for Achieving Program Outcomes Should Be Improved” (GAO-07-58, January 17, 2007); “Federal
         Contracting: Guidance on Award Fees Has Led to Better Practices but Is Not Consistently Applied”
         (GAO-09-630, May 29, 2009); and “Federal Contracting: Application of OMB Guidance Can Improve
         Use of Award Fee Contracts” (GAO-09-839T, August 3, 2009).
     3
         OMB Memorandum, “Appropriate Use of Incentive Contracts,” December 4, 2007.
     4
         Obligations, as used here, are allotments of funding added to a contract. This differs from the total
         estimated cost, which is an estimated ceiling of a contract’s total cost upon completion of requirements.
     5
         In the text, we rounded dollar figures above $1 million to the nearest $100,000 resulting in minor
         differences when components are totaled. See Appendix C for exact dollar amounts.



ii                                                                                          REPORT NO. IG-14-003
OVERVIEW



  beneficial type of contract were not made, and relevant management information for
  informed decision-making was not gathered.

  We found that for 26 of the 45 contracts we reviewed contracting officers incorrectly
  calculated provisional and interim award-fee payments because the mathematical
  formulas they are required to use are overly complex and vary depending on whether the
  contract is for an end-item deliverable or for services. Consequently, NASA incorrectly
  paid contractors approximately $66.4 million in provisional and interim payments during
  evaluation periods than permitted by the NASA FAR Supplement.6 Moreover, we found
  the Agency had no controls for monitoring the accuracy of its provisional and interim
  payment calculations.

  We also found an issue with how NASA applies a clause unique to end-item deliverable
  contracts informally known as the “look-back clause.”7 The Agency developed the
  Award Fee for End-Item Contracts clause in response to negative publicity in the media
  and scrutiny from the OIG and GAO. For contracts with this clause, NASA evaluates
  contractor performance and makes interim award-fee payments throughout the course of
  the contract, but the amount of award fee the contractor ultimately receives is based upon
  demonstrated performance of the end-item deliverable. However, NASA includes in the
  final award pool any funds not awarded to the contractor in interim periods.

  We believe the practice of including unearned funds from interim award periods in the
  final award pool circumvents the FAR provision prohibiting rollover of unearned fees to
  subsequent performance periods and promotes a philosophy that as long as a mission
  provides good science data the Agency will overlook cost and schedule overages. Our
  review included three end-item contracts for which NASA has completed final
  evaluations of the contractor’s performance. For one of these contracts, NASA paid
  approximately $835,470 in award fees drawn from amounts that were “rolled over” from
  interim evaluation periods. We question the appropriateness of these payments.

  We also identified seven questionable evaluation and acquisition practices that
  contributed to ineffective use of award-fee contracts at NASA. Specifically, we found
  award fees were incorrectly allocated to post-launch periods; questionable combining of
  award-fee periods; award fees not justified by contractor performance; excellent ratings
  not supported by technical, cost, and/or schedule performance; cost control criterion not
  evaluated at 25 percent as required; available award-fee pool was not defined or
  allocated; and failure to complete required analysis and documentation to support the
  contract type used. We determined that because of these questionable practices NASA
  paid approximately $2.4 million in excess award fees for the 45 contracts we reviewed.

  6
      Provisional award fees are payments made within evaluation periods prior to an interim or final
      evaluation for that period. Interim award fees are the amount of fee that a contractor receives at the
      completion of each award fee period based on the evaluation of its performance by NASA. Incorrect
      payments made during evaluation periods can be addressed prior to the end of the contract. See OIG
      Recommendation 4 on page 13.
  7
      NASA FAR Supplement, Section 1852.216-77, “Award Fee for End-Item Contracts.”



REPORT NO. IG-14-003                                                                                           iii
                                                                                         OVERVIEW



     We also determined that NASA expended more than $250,000 evaluating contracts for
     which performance objectives were undefined or for which it had not determined that an
     award-fee contract was the most beneficial type of contract for the services provided.

     Finally, we reviewed NASA’s Award Fee Evaluation System (AFES), which includes
     contracting officers’ evaluations describing how award-fee contracts motivated contractor
     performance and enhanced contract objectives. We examined 245 of these evaluations
     and found that 143 did not satisfy FAR requirements, NASA FAR Supplement
     requirements, or NASA Office of Procurement guidance. Specifically, these statements
     did not adequately explain whether the use of award fees was a positive factor in
     motivating contractor performance or enhanced specific acquisition objectives. NASA’s
     failure to ensure the quality of data entered has impaired its ability to measure the
     effectiveness of current award-fee contracts and reduced its ability to correct deficiencies
     thereby adversely affecting the quality of future contract sourcing decisions. We also
     determined that NASA expended approximately $7.2 million evaluating 143 contract
     periods for which they did not gather relevant management information for informed
     decision-making.

     We identified 54 instances of improper or questionable practices involving 14 separate
     issue areas in the 45 contracts we reviewed (see Appendix B for a listing of the issues by
     contract and Appendix C for the monetary impact by contract). These issues raise
     significant concerns about NASA’s ability to effectively motivate contractor performance
     and improve acquisition outcomes using award-fee contracts.

     Management Action

     To improve NASA’s administration and oversight of award-fee contracts and ability to
     motivate contractor performance, we recommended that the Agency reexamine its
     policies and procedures for (1) calculating interim and provisional payments, (2) using
     the Award Fee for End-Item Contracts clause, (3) ensuring adequate internal controls are
     in place to prevent errors in the administration of award-fee contracts, and (4) capturing
     required award-fee data.

     Specifically, for each of the four areas, we recommended that the Assistant Administrator
     for Procurement take the following actions:

     Interim and Provisional Payments

           Simplify the mathematical formulas used to calculate interim and provisional
            payments and update the NASA FAR Supplement accordingly.
           Require that the same formula be used for service and end-item contracts and
            update the NASA FAR Supplement accordingly.
           Implement a process to test the accuracy of award-fee calculations on an ongoing
            basis.


iv                                                                          REPORT NO. IG-14-003
OVERVIEW



         Direct contracting officers to review on-going award-fee contracts to ensure that
          calculations are appropriate and accurate for contract type and adjust contract
          payments as necessary.
         Provide additional training to Agency contracting officers on proper calculation of
          award-fee payments.
         Consider eliminating provisional award-fee payments.

  Award Fee for End-Item Contracts Clause

         Revise NASA FAR Supplement 1852.216-77 so that award fees not earned in
          interim evaluations are not available to contractors at the end of contract
          performance or use the end-item contract final evaluation only for downward
          adjustments following catastrophic events or failures. Alternatively, NASA
          should designate a specific percentage of the total award pool that will be
          available for the final performance evaluation.
         Issue guidance requiring performance evaluation plans to contain specific criteria
          for the final evaluation for end-item contracts.

  Evaluation and Acquisition Practices

         Reemphasize or issue additional guidance, as applicable, prohibiting the
          combination of award-fee periods, reemphasizing that award fees shall be
          commensurate with the work performed, setting forth the criteria that must be met
          to receive an overall rating of excellent, establishing that the evaluation of cost
          shall be at least 25 percent of the total evaluation weighting, and the importance
          of completing the required cost-benefit analysis prior to contract award.

  Award Fee Evaluation System

         Provide examples to assist contracting officers in developing the types of analyses
          for entry into AFES.
         Require contracting officers to document in AFES an explicit link between
          contract performance and award fees to ensure the database provides useful data
          for evaluating contractor performance and to support management decisions on
          current and future award-fee contracts.
         Develop a process to improve monitoring and analysis of the information entered
          into AFES to ensure adequate data quality and compliance with the FAR, NASA
          FAR Supplement, and NASA Office of Procurement guidance and improve
          outcomes when using award-fee contracts.

  In response to our draft report, the Assistant Administrator for Procurement concurred or
  partially concurred with our recommendations and proposed corrective actions to:



REPORT NO. IG-14-003                                                                            v
                                                                                        OVERVIEW



     (1) implement a process to test the accuracy of award fee calculations; (2) review on-
     going award-fee contracts to ensure that calculations are appropriate and accurate;
     (3) provide additional training on award-fee payment calculations; (4) reemphasize or
     issue additional guidance to address the evaluation and acquisition deficiencies we
     identified; and (5) develop a process to improve monitoring and analysis of the
     information entered into AFES.

     We consider the actions proposed by the Assistant Administrator for all but the second of
     these recommendations to be responsive and will close the recommendations upon
     completion and verification of those actions. With regard to reviewing calculations
     related to on-going contracts, the Assistant Administrator stated that he would
     communicate with Center Procurement Officers to emphasize the importance of correctly
     calculating payments. However, our recommendation was to review on-going contracts
     to identify and correct erroneous payments. Because we do not believe the Assistant
     Administrator’s proposed action will achieve our objective this recommendation remains
     unresolved.

     Although the Assistant Administrator concurred with our recommendation to
     reemphasize or issue additional guidance to address the evaluation and acquisition
     deficiencies we identified, he challenged our methodology for calculating the
     $2.4 million in questioned and unsupported costs associated with the recommendation.
     However, the Assistant Administrator points to only one example of alleged error –
     namely, that our assumption regarding the “25 percent rule” is flawed because “it does
     not take into account the contractor’s performance with regard to cost control under this
     contract.” Our point is simply that NASA did not evaluate cost control as a separate
     evaluation factor weighted at a minimum of 25 percent as required by the NASA FAR
     Supplement; therefore, the percentage difference between what was evaluated (0 percent
     for one contract and 5 percent for another) is unsupported costs.

     The Assistant Administrator non-concurred with our recommendations to: (1) simplify
     interim and provisional payment mathematical formulas; (2) require the same formula for
     service and end-item contracts; (3) consider eliminating provisional award fee payments;
     (4) revise NASA FAR Supplement 1852.216-77 to prevent contractors from receiving
     award fees not earned in previous periods; (5) require specific criteria for the final
     evaluation of end-item contracts; (6) provide examples to assist contracting officers in
     developing AFES entries; and (7) require contracting officers to document explicit links
     between contract performance and award fee.

     The Assistant Administrator stated that he disagreed with the analysis and findings that
     motivated these recommendations and suggested they were based on a misunderstanding
     of award-fee contract principles. Specifically, he stated that we inappropriately applied
     the term “rollover of unearned award fee” to NASA’s end-item award-fee concept
     because although NASA pays contractors award fees in interim evaluation periods under
     these contracts, those payments are not final until the last evaluation period. Therefore,
     the Assistant Administrator reasoned, interim award fees are not “earned” within the
     meaning of the FAR until that final evaluation and any unpaid amounts from interim


vi                                                                          REPORT NO. IG-14-003
OVERVIEW



  periods remain available to the contractor without contravening the “no-rollover” rule.
  He also stated that the report does not provide support for the observation that how
  NASA administers end-item award fees promotes a philosophy that cost and schedule
  challenges will be overlooked so long as the end product performs well. We disagree
  with both points.

  First, although we acknowledge that interim award-fee payments are not final in the sense
  that the Agency can adjust them at the end of contract performance, we believe that the
  Assistant Administrator’s definition of “earned” is too narrow and elevates form over
  substance. Neither the FAR nor the NASA FAR Supplement defines the terms “earned”
  or “unearned.” Although “earned” may mean to receive and retain as the Assistant
  Administrator suggests, the term “earned” may also be used to signify that an entity
  “merits” an award and in this context the word does not necessarily denote finality or
  permanence.

  Indeed, as noted in our report NASA itself uses the term “earned” to refer to award fee in
  interim periods. For example, in the Aerojet General Corporation (Aerojet) contract
  referenced in our report under Paragraph 4.1, Periodic Performance, “The Government
  will determine the amount of award fee earned for periodic performance on the basis of a
  concurrent evaluation...,” and in Paragraph 7, Documentation of Performance,
  “...documentation will serve as the basis for the evaluation, scoring, and recommendation
  of earned award fee...” In addition, Fee Determination Official (FDO) letters to the
  contractor referenced the amount “earned” for the period of performance. Similarly, the
  contract contains an appendix for documenting award fee paid throughout performance of
  the contract that contains a column labeled “earned” for each evaluation period.

  The FAR defines rollover as “the process of transferring unearned award fee, which the
  contractor had an opportunity to earn, from one evaluation period to a subsequent
  evaluation period, thus allowing the contractor an additional opportunity to earn that
  previously unearned award fee.” We found that NASA’s current practice for end-item
  contracts permits exactly that because it gives contractors a second chance to receive
  money the Agency initially determined their interim performance did not warrant. In our
  judgment, this is the essence of what the FAR aimed to prevent by prohibiting “rollover.”

  Moreover, contrary to the Assistant Administrator’s assertion, we provided a clear
  example of an instance in which application of NASA’s end-item award fee policy
  resulted in minimizing cost and schedule challenges during the course of a project based
  on a later successful outcome. Specifically, we pointed to the Aerojet contract in which
  NASA determined that the contractor’s performance merited only 84 percent of the
  available award fee in the interim periods due to cost growth, management deficiencies,
  and program delays but awarded the contractor 95 percent of the total available award fee
  after final evaluation. We believe NASA’s final evaluation letter to the contractor from
  the FDO clearly supports our contention that when a mission provides good science, prior
  poor performance on the part of the contractor will be forgiven:




REPORT NO. IG-14-003                                                                           vii
                                                                                                           OVERVIEW



                  In the final look back, the evaluation board members concluded that [Aerojet’s]
                  development of the [instrument] led to an outstanding instrument, which has been
                  operating flawlessly since on-orbit power up last November. The evaluation team
                  noted that the evaluations declined after Award Fee Period 1 due to subcontractor
                  issues resulting in Award Fee Period 4 scores of 40 percent for Program Management
                  and 64 percent for Milestone and Schedule Management. At that point, [Aerojet]
                  upper management recognized the seriousness of the problem, removed the old
                  management team and added a new aggressive team who turned this project around,
                  resulting in exceptional performance.        [Aeroject] is commended for their
                  responsiveness in correcting these issues during the early stages of this contract
                  resulting in the board members adjusting the final scores for Program Management
                  and Milestones & Schedule to 96 percent and 94 percent, respectively.

       Although we agree that contractors should be rewarded for improved performance during
       the course of a project, award fee is designed to incentivize consistent performance over
       the life of the contract (which presumably will lead to better outcomes overall); therefore,
       adjusting final performance scores when that performance was appropriately scored
       during interim periods is inconsistent with the underlying purpose of an award fee
       contract and not in the best interest of the Government. NASA, as part of the Defense
       Acquisition Regulations Council, was clear on this point when it responded to a
       suggestion that the FAR prohibition on rollover be revised to allow it under certain
       circumstances. Specifically, NASA said:

                  If a contractor did not perform adequately during an award-fee rating period and was
                  rated appropriately and then allowed to recover that unearned award fee in a
                  subsequent period, the incentive for the contractor to perform consistently throughout
                  the entire contract would be reduced.8

       The Assistant Administrator also contends that we disregard a GAO follow-up
       assessment that did not find indications of rollover in NASA contracts. We spoke to the
       GAO auditors who performed that review and were told that they looked at seven NASA
       contracts only to determine whether the contracts contained an explicit rollover clause.
       In addition, none of the contracts GAO reviewed were complete at the time and all of
       them appear to be service rather than end-item contracts. Moreover, the GAO auditors
       told us they would not have identified the issue we raised relating to end-item contracts
       as a result of their limited review. Therefore, the Assistant Administrator’s reliance on
       GAO’s assessment that NASA was not utilizing unearned award-fee rollovers in its
       award-fee contracts is misplaced.

       The Assistant Administrator also claims that our report creates the impression that NASA
       overpaid contractors $66.4 million due to mathematical errors on interim and provisional
       award-fee payments. However, we clearly state on page 10 that NASA can correct these
       erroneous payments at any time over the life of the contract or at the end of the contract.

       In addition, the Assistant Administrator takes issue with what he terms “questioned
       costs” of $7.2 million we estimated NASA spent to conduct evaluations in 143 award fee

       8
           Federal Register, Volume 75, Number 188, Page 60261, September 29, 2010.



viii                                                                                        REPORT NO. IG-14-003
OVERVIEW



  periods we found were not in compliance with requirements and for which the Agency
  did not gather relevant management information to assist in informed decision-making.
  However, we did not label this figure as questioned costs and included it simply to
  illustrate the importance of collecting data of sufficient quality given the expense
  associated with the evaluation process.

  NASA spends approximately 80 percent of its budget each year on contracts to procure
  goods and services and to provide funding to grant and award recipients. Given the large
  sums at stake, we intend to continue to monitor NASA’s performance with regard to
  administering these contracts and grants and to work with the Agency to find solutions to
  the deficiencies noted in our report.

  We summarize the Assistant Administrator’s response to each of our recommendations
  and evaluate those responses in the body of the report. Management’s full response is
  reprinted in Appendix D.




REPORT NO. IG-14-003                                                                          ix
NOVEMBER 19, 2013




                                                          CONTENTS

  INTRODUCTION
      Background _________________________________________ 1
      Objectives __________________________________________ 5

  RESULTS
      Overly Complex Award Formulas Result in Incorrect
        Payments to Contractors _____________________________ 6
      NASA Practice Circumvents Prohibition Against “Rollover”
        and Awarding of Unearned Fees ______________________ 15
      Questionable Evaluation and Acquisition Practices Result in
        Ineffective Use of Award-fee Contracts _________________ 23
      Failure to Adequately Collect and Analyze Data Hinders
         NASA’s Ability to Measure Award-fee Effectiveness _______ 30
      Other Issues of Concern ______________________________ 36

  APPENDIX A
      Scope and Methodology _______________________________ 39
      Review of Internal Controls ____________________________ 41
      Prior Coverage ______________________________________ 41

  APPENDIX B
      Audit Universe and Issues by Center and Contract __________ 43

  APPENDIX C
      Incorrect Payments and Questioned Costs ________________ 45

  APPENDIX D
      Management Comments ______________________________ 47

  APPENDIX E
      Report Distribution ___________________________________ 54



REPORT NO. IG-14-003
NOVEMBER 19, 2013




                                                                       INTRODUCTION


Background

  The Federal Acquisition Regulation (FAR) outlines the contract vehicles available to
  Federal agencies for acquiring goods and services, including fixed-price contracts and
  cost-reimbursement contracts. In fixed-price contracts, the contractor agrees to deliver a
  product or service at a price not to exceed an agreed amount. Agencies generally use
  fixed-price contracts when costs and risks can be clearly defined, for example when
  purchasing commercially available items such as laptop computers. In contrast, under
  cost-reimbursement contracts an agency agrees to pay for all allowable costs the
  contractor incurs in delivering the service or product. Cost-reimbursement contracts
  involve increased risk for the Government and are generally more appropriate when it is
  difficult to accurately estimate costs in advance. Because this describes many NASA
  projects such as development of spacecraft, cost-reimbursement contracts are common at
  NASA.

  Incentive contracts are a type of contract in which a predetermined amount of money is
  set aside for the contractor to earn based on the contractor’s performance. Properly
  structured incentive contracts can reduce the risk of cost overruns, delays, and
  performance failures by providing a well-performing contractor the opportunity to earn
  additional money.

  Award-fee contracts are one type of incentive contract. NASA has been using award-fee
  contracts since the 1960s. An award fee is a pool of money that a contractor may earn in
  whole or in part by meeting or exceeding predetermined performance criteria. In fiscal
  year (FY) 2012, NASA spent approximately $15.1 billion on contracts, $7.1 billion of
  which were award-fee contracts.

  Advantages of Award-fee Contracts. When properly crafted and administered, award-
  fee arrangements can be valuable tools for motivating contractor performance in areas an
  agency deems critical to program success. First, tying monetary incentives to particularly
  important tasks or goals focuses the contractor’s attention on those issues. Second,
  award-fee contracts provide flexibility to adjust criteria and its weight over time. Finally,
  because periodic evaluations provide an opportunity to address performance issues,
  award-fee contracts can enhance communication between the Government and
  contractors.

  Challenges of Award-fee Contracts. Prior work by the NASA Office of Inspector
  General (OIG) and the Government Accountability Office (GAO) has shown mixed
  results from NASA’s use of award-fee contracts. For example, in March 2009, we
  reported that managers of NASA’s Stratospheric Observatory for Infrared Astronomy



REPORT NO. IG-14-003                                                                              1
                                                                                                  INTRODUCTION



    Program failed to include cost control as a performance evaluation factor in two cost-
    plus-award-fee contracts, which resulted in NASA expending $233,600 for award fees
    that did not meet NASA FAR Supplement requirements.9 In addition, in
    September 2009, we reported that although the criteria used to evaluate the California
    Institute of Technology’s (Caltech) operation of the Jet Propulsion Laboratory under a
    $7.5 billion award-fee contract were sufficiently specific and measurable, NASA
    evaluators provided incomplete assessments or assigned inappropriate ratings to
    Caltech’s performance. We also found that NASA had not proportionately weighted
    evaluation criteria by a project’s overall importance to the Agency or by cost, which
    allowed exceptional performance on smaller projects to mask less impressive
    performance on larger, more significant projects.10

    For its part, the GAO has consistently reported on inappropriate and ineffective use of
    contract award fees by NASA and other Federal agencies and has found that contractors
    across Government were paid billions of dollars in award fees regardless of acquisition
    outcomes.11 GAO also found that agencies had not compiled data, conducted analyses, or
    developed performance measures to evaluate their effectiveness in using award fees and,
    specifically with respect to NASA, that the Agency had not consistently implemented
    existing guidance on award fees.

    Another challenge in using award-fee contracts is the substantial time and effort involved
    in administering them. In 2001, NASA estimated the average cost of evaluating,
    documenting, and communicating contractor performance during each award-fee period
    (generally every 6 to 12 months over the life of a contract) at $38,700. Adjusted for
    inflation, this equates to approximately $50,000 in 2013.12

    In December 2007, the Office of Management and Budget (OMB) issued guidance to
    improve agencies’ use of award-fee contracts.13 The guidance included linking award
    fees to acquisition outcomes, designing evaluation criteria to motivate excellent
    contractor performance, and prohibiting payment for unsatisfactory performance. In
    addition, the guidance limited the opportunities for contractors to collect unearned award
    fees in subsequent performance periods, a practice known as “rollover.” In 2009, the
    FAR was amended to prohibit rollover.



    9
         NASA OIG, “Final Memorandum on Audit of the Stratospheric Observatory for Infrared Astronomy
         (SOFIA) Program Management Effectiveness” (IG-09-013, March 2009).
    10
         NASA OIG, “NASA Should Reconsider the Award Evaluation Process and Contract Type for the
         Operation of the Jet Propulsion Laboratory” (IG-09-022, September 25, 2009).
    11
         GAO, “DOD Has Paid Billions in Award and Incentive Fees Regardless of Acquisition Outcomes,”
         (GAO-06-66, December 2005) and “Guidance on Award Fees Has Led to Better Practices But Is Not
         Consistently Applied,” (GAO-09-630, May 2009).
    12
         The estimated costs included the time of five monitors, six board members, one recorder, and one
         contracting officer.
    13
         OMB, “Office of Federal Procurement Policy Memorandum,” December 4, 2007.



2                                                                                        REPORT NO. IG-14-003
INTRODUCTION



  In response to a variety of GAO recommendations and OMB guidance, NASA revised its
  policies to enhance accountability and effectiveness in its use of award-fee contracts.
  Since October 2009, NASA has required staff to obtain approval from the Assistant
  Administrator for Procurement before entering into award-fee contracts. As part of the
  request, staff must document the other contract types considered and the rationale for
  using an award-fee vehicle.

  Award-fee Process. The total amount of award fee available to the contractor – known
  as the award-fee pool – is established during contract negotiations. For each contract,
  NASA appoints a Fee Determination Official (FDO). The FDO is responsible for
  appointing a Performance Evaluation Board (Board) whose members vary depending
  upon the nature, dollar value, and complexity of the procurement. However, in most
  cases individuals with overall primary responsibility for the technical and contracting
  aspects of the contract are appointed to the Board. The Board is responsible for
  developing a performance evaluation plan that sets forth the criteria by which NASA will
  evaluate the contractor and specifies the number and timing of evaluation periods and the
  amount of award fee available in each period.

  Project personnel are assigned to monitor contractor performance and prepare a primary
  performance evaluation report assigning both adjectival and numerical scores for each
  award period based on the criteria outlined in the performance evaluation plan.14 The
  Board considers this report as well as other pertinent information – including the
  contractor’s self-evaluation – and prepares a report with findings and recommendations
  for the FDO who makes the final determination regarding the award fee earned each
  period. According to the NASA FAR Supplement, contractor performance should be
  evaluated at least every 6 months. The award fee is determined by applying the
  numerical score as an earned percentage against the available fee for the period (see
  Table 1).




  14
       The Board is responsible for evaluating the contractor’s overall performance based on performance
       monitor reports and additional performance information obtained from the contractor and other sources.
       The Board is supposed to bring broader management perspective to the evaluation process than the
       monitor, and accordingly its members should be at a relatively high management level in the
       organization.



REPORT NO. IG-14-003                                                                                            3
                                                                                            INTRODUCTION




                          Table 1. Description of Award-fee Rating Scoresa

                                    Range of
                                  Performance
             Rating                  Points                               Description
                                                      Of exceptional merit; exemplary performance in
                                                      a timely, efficient, and economical manner; and
                                                      very minor (if any) deficiencies with no adverse
            Excellent                 91-100          effect on overall performance.
                                                      In order to receive an overall excellent rating,
                                                      the contractor would be under cost, on or ahead
                                                      of schedule, and providing outstanding technical
                                                      performance.
                                                      Very effective performance, fully responsive to
                                                      contract requirements; contract requirements
           Very Good                   81-90          accomplished in a timely, efficient, and
                                                      economical manner for the most part; and only
                                                      minor deficiencies.
                                                      Effective performance, fully responsive to
              Good                     71-80          contract requirements; and reportable
                                                      deficiencies, but with little identifiable effect on
                                                      overall performance.
                                                      Meets or slightly exceeds minimum acceptable
          Satisfactory                 61-70          standards, adequate results, and reportable
                                                      deficiencies with identifiable, but not
                                                      substantial, effects on overall performance.
                                                      Does not meet minimum acceptable standards
                                                      than [sic] in one or more areas; remedial action
                                                      required in one or more areas; and deficiencies
     Poor or Unsatisfactory        Less than 61       in one or more areas that adversely affect overall
                                                      performance.
                                                      No award fee shall be paid for an unsatisfactory
                                                      rating.
    a
     In February 2011, NASA changed the range of performance points for each rating category. This table
    identifies the range in effect during the period of the contracts reviewed in this audit.
    Source: NASA FAR Supplement and NASA Award Fee Contracting Guide.

    Types of Award-fee Payments. The intent of award fees is to motivate the contractor
    through periodic evaluation of its performance against established criteria. Award-fee
    payments are divided into provisional, interim, and final payments. The limitation for
    each type of payment differs depending on whether the contract is for a service such as
    Center facility maintenance or an end-item deliverable such as a sensor for a satellite.



4                                                                                  REPORT NO. IG-14-003
INTRODUCTION



            Provisional payments are made prior to the end of a performance evaluation
             period and are generally used when long evaluation periods make it necessary to
             consider payments more frequently than at the end of each period. Provisional
             payments are permitted in both service and end-item deliverable contracts.

            Interim payments are specific to end-item contracts and are paid at the end of an
             award-fee period after an interim evaluation is completed.

            Final payments are specific to service contracts and are paid at the end of each
             evaluation period. All evaluations are considered final and the contractor keeps
             100 percent of fee earned in each period.

            Award Fee for End-Item Contracts clause payments are made on end-item
             contracts at the conclusion of the contract and supersede any provisional and
             interim payments. Designed to measure the overall performance of the
             contractor, only the overall evaluation is considered final.

Objectives

  The overall objective of this audit was to determine whether NASA effectively used
  award fees to motivate contractor performance and improve acquisition outcomes.
  Specifically, we examined a sample of 45 contracts (21 end-item and 24 service
  contracts) with contract obligations made between FYs 2009 and 2011, examining 502 of
  557 award-fee evaluation periods, to determine whether:15

            NASA’s use of award-fee contracts and evaluation of contractor performance was
             consistent with requirements, policies, and procedures;

            NASA was monitoring and revising performance evaluation plan criteria as
             necessary to better incentivize contractor performance; and

            NASA was collecting and analyzing information on award fees to evaluate their
             effectiveness.

  See Appendix A for details of the audit’s scope and methodology, our review of internal
  controls, and a list of prior coverage; Appendix B for the universe of contracts reviewed
  and the issues identified on each; and Appendix C for the monetary impact by contract.




  15
       We excluded 55 award fee periods due to age or classification restrictions. One contract was primarily
       for services, but also required the contractor to provide end-item deliverables.



REPORT NO. IG-14-003                                                                                            5
                                                                                                 RESULTS




                           OVERLY COMPLEX AWARD FORMULAS RESULT IN
                                 INCORRECT PAYMENTS TO CONTRACTORS

               We found that NASA contracting officers incorrectly calculated provisional and
               interim award-fee payments in more than half of the contracts we reviewed (26 of
               45). In our judgment, this occurred because the mathematical formulas they are
               required to use to calculate the payments are overly complex and vary depending on
               whether the contract is for an end-item deliverable or for services. Consequently,
               NASA paid contractors approximately $66.4 million in provisional and interim
               payments that did not conform to the NASA FAR Supplement. Moreover, we found
               no controls for monitoring the accuracy of the Agency’s provisional and interim
               payment calculations.


Overly Complex NASA FAR Supplement Requirement

    The intent of an award fee is to motivate contractor performance in the areas of cost,
    schedule, and performance through periodic evaluation and payments. The FAR states
    that “appropriate Government surveillance during performance will provide reasonable
    assurance that efficient methods and effective cost controls are used.” In addition, NASA
    award-fee guidance states that the performance evaluation plan should be as simple as
    feasible, reasoning that the simpler, the more effective the plan.16 However, we found
    NASA’s award-fee provisional and interim payment formulas overly complex and
    therefore subject to misinterpretation and misapplication.

    Under NASA’s current process, the contracting officer calculates the allowable award fee
    depending on the timing of the payment – provisional or interim – and the type of
    contract – end-item or service.

    Provisional Payments. Provisional payments can be used in both end-item and service
    contracts. For end-item contracts, the payments are limited to 80 percent of the prior
    period’s score. For service contracts, provisional payments are limited to the prior
    period’s score but are not to exceed 80 percent of the amount available for the current
    period.

    Table 2 illustrates the application of the provisional payment formulas and demonstrates
    the differences in payments for end-item and service contracts that receive the same
    performance evaluations.




    16
         NASA Award Fee Contracting Guide, Section 3.3(f), “Performance Evaluation Plan.”



6                                                                                    REPORT NO. IG-14-003
        RESULTS




                              Table 2. Illustration of Provisional Award-fee Payments
                                                                                             Percent                  Amount of Fee
                                                                       Available           Available for               Available for
                                 Award-fee          Award-fee        Award Fee for          Provisional                 Provisional
     Type of Contract             Period           Period Score       the Period             Payment                     Payment
                                                                                                                      The amount available x
End-Item Contracts                                                                       Limited to 80 percent of
                                                                                         the prior period's score
                                                                                                                       [80 percent of prior
                                                                                                                          period's score]
                               In the first evaluation period, since there is no prior      (There is no prior
                               score, the amount available is limited to 80 percent      period's score; therefore,      ($150,000 x 0.8)
                                                                                                   80%)
                               of the amount available.
For an end-item contract,              1                95%             $150,000                  80%                      $120,000
the total amount of the        In the second period, the amount available for
provisional payment in a       provisional payment is limited to 80 percent of the
                                                                                         (Prior period's score of
                                                                                                                        ($300,000 x 0.76)
                                                                                               95% x 0.8)
period cannot exceed           prior period's score, or 80 percent of 95 percent.
80 percent of the prior
period’s evaluation score.             2                77%             $300,000                  76%                      $228,000
                               In the third period, the amount available for
                                                                                         (Prior period's score of
                               provisional payment is limited to 80 percent of the             77% x 0.8)
                                                                                                                        ($375,000 x 0.62)
                               prior period's score, or 80 percent of 77 percent.
                                      3                93%               $375,000                 62%                      $232,500

                                                                                                                      The amount available x
                                                                                          The lesser of the prior
                                                                                                                      [the lesser of the prior
Service Contracts                                                                          period's score or 80
                                                                                          percent of the current
                                                                                                                        period's score or 80
                                                                                                                       percent of the current
                                                                                            amount available
                                                                                                                         amount available]
                               In the first evaluation period, since there is no prior      (There is no prior
                               score the amount available is limited to 80 percent       period's score; therefore,      ($150,000 x 0.8)
                                                                                                   80%)
                               of the amount available.
For a service contract, the            1               95%              $150,000                  80%                      $120,000
total amount of the            In the second period, the prior period's score
provisional payment in a       exceeds 80 percent; therefore, the amount that may         (80% is less than the
period is limited to the                                                                  prior period's score of        ($300,000 x 0.8)
                               be provisionally paid is limited to 80 percent of the              95%)
lesser of a percentage         current amount available.
stipulated in the contract
(but not exceeding                     2                77%              $300,000                 80%                      $240,000
80 percent) or the prior       In the third period, the prior period's score is less
period's evaluation score.     than 80 percent; therefore, the amount that may be        (The prior period's score
                               provisionally paid is limited to the prior period's         of 77% is less than          ($375,000 x 0.77)
                                                                                                  80%)
                               score of 77 percent applied to the current amount
                               available.
                                      3                93%               $375,000                 77%                      $288,750
Source: NASA OIG derived example.




         REPORT NO. IG-14-003                                                                                                   7
                                                                                         RESULTS



    Interim Payments. Interim award-fee payments are specific to end-item contracts and
    are limited to 80 percent of the total award fee available for the period minus any
    provisional payments.

    Final Payments. Final award-fee payments are used in service contracts where
    contractor performance is definitively measurable within each evaluation period. All
    evaluations are considered final and the contractors keep 100 percent of fee earned in
    each period.

    Table 3 identifies the application of formulas for interim and final evaluation award-fee
    payments for end-item and service contracts and an example calculation.




8                                                                          REPORT NO. IG-14-003
          RESULTS




                    Table 3. Illustration of Interim and Final Evaluation Award-fee Payments

                                                                                                  Percent
                                                                                                  Earned              Final Amount
                                                                Available                        After Final             Paid to
                                                                Award-fee       Provisional      Evaluation          Contractor Less
                         Award-fee          Award-fee            for the         Amount            for the             Provisional
 Type of Contract         Period           Period Score          Period            Paid            Period               Payments
                                                                                                                      [80 percent of available
                                                                                Amount from         [award fee
 End-Item Contracts                                                             Table 2 (prior
                                                                                  example)
                                                                                                  available] x 80
                                                                                                      percent
                                                                                                                         award fee] minus
                                                                                                                     [provisional fees paid for
                                                                                                                            the period]
                        In this first evaluation period, the contractor was
 For an end-item        provisionally paid 80 percent of the amount
 contract, the          available; therefore, the contractor is paid no                          ($150,000 x 0.8)     ($120,000 - $120,000)

 amount of an           additional fee as an interim payment regardless of
                        the evaluation score.
 interim award-fee
 payment is limited            1                95%              $150,000        $120,000          $120,000                     $0
 to the lesser of the   In the second period, the interim evaluation score
 interim evaluation     is less than 80 percent; therefore, the contractor is
                                                                                                 ($300,000 x 0.77)    ($231,000 - $228,000)
 score or 80 percent    limited to the interim evaluation score minus any
                        provisional payments made.
 of the fee allocated
 to that period less           2                77%              $300,000        $228,000          $231,000                  $3,000
 any provisional        In the third period, the interim evaluation score is
 payments made          more than 80 percent; therefore, the contractor is
                                                                                                 ($375,000 x 0.8)     ($300,000 - $232,500)
 during the period.     limited to 80 percent of the amount available
                        minus any provisional payments made.
                               3                93%              $375,000        $232,500          $300,000                 $67,500

                                                                                                                      [80 percent of available
                                                                                Amount from         [award fee
 Service Contracts                                                              Table 2 (prior
                                                                                  example)
                                                                                                   available] x
                                                                                                 evaluation score
                                                                                                                         award fee] minus
                                                                                                                     [provisional fees paid for
                                                                                                                            the period]
                        In the first evaluation period, the amount paid to
                        the contractor is the amount earned minus any                            ($150,000 x 0.95)    ($142,500 - $120,000)
 For a service          provisional payments made.
 contract, all
                               1                95%              $150,000        $120,000          $142,500                 $22,500
 evaluations are
                        In the second period, the provisional amount paid
 final and the          exceeds the score for the period; therefore, the
 contractor keeps       contractor is required to refund the excess payment
                                                                                                 ($300,000 x 0.77)    ($231,000 - $240,000)
 the fee earned in      to NASA in the next invoice.
 any period
                               2                77%              $300,000        $240,000          $231,000                 ($9,000)
 regardless of the
                        In the third period, the amount paid to the
 evaluations for
                        contractor is the amount earned minus any                                ($375,000 x 0.93)    ($348,750 - $288,750)
 subsequent periods.    provisional payments.
                               3                93%              $375,000        $288,750          $348,750                 $60,000
Source: NASA OIG derived example.



           REPORT NO. IG-14-003                                                                                                 9
                                                                                                             RESULTS



Contractors Received Incorrect Provisional and Interim Payments
  Due to Complex Formulas

     We found that misinterpretations of the complex NASA FAR Supplement requirements
     resulted in misapplication of payment formulas and incorrect payments to contractors.
     We found instances in which contracting officers incorrectly applied service contract
     formulas to end-item contracts, as well as instances in which they applied provisional
     payment formulas inconsistently. Determining the correct formula is so confusing that in
     one instance a contracting officer used different formulas for the same contract.

     In 26 of the 45 contracts reviewed, we found that NASA paid contractors approximately
     $66.4 million more in provisional and interim payments during evaluation periods than
     permitted.17 Specifically, we determined provisional payment calculations included:

               $11.9 million that was misapplied and incorrectly paid on 5 end-item contracts;
                and

               $5.9 million that was misapplied and incorrectly paid on 13 service contracts.

     For interim payment calculations, we determined that approximately $48.7 million was
     misapplied and incorrectly paid on 12 contracts.18

     In our review of the 45 NASA contracts, we found that NASA contracting personnel
     inappropriately applied the service contract method to end-item contracts, resulting in
     payments in excess of the NASA FAR Supplement limitations. For example:

               NASA awarded a $1.1 billion contract to Pratt-Whitney Rocketdyne, Incorporated
                for the Space Shuttle main engine in May 2002. The contractor received
                assessment scores exceeding 80 percent for 10 of 19 award-fee periods.
                However, when calculating interim award-fee payments the contracting officer
                failed to apply the 80 percent limitation and incorrectly authorized payments
                equal to the evaluation scores. This resulted in the contractor receiving payments
                inflated by as much as 21 percent for a total of $8.7 million in incorrect payments
                over the life of the contract.19

               NASA awarded two contracts to Ball Aerospace Technologies Corporation (Ball)
                on which the contractor received interim payments that exceeded the 80 percent
                rule. Between the two contracts, Ball realized just over $1 million in incorrect
                interim payments as follows:
     17
          Due to a lack of contract documentation available for some contracts, incorrect payments could be
          greater than the $66.4 million we identified. However, incorrect payments made during evaluation
          periods can be addressed prior to the end of the contract. See OIG Recommendation 4 on page 13.
     18
          Four contracts had violations in both provisional and interim payments.
     19
          The contracting officer authorized interim payments in all but 1 of the 19 award fee periods that were
          11-25 percent higher than permitted.



10                                                                                          REPORT NO. IG-14-003
RESULTS



             o In July 2007, NASA awarded Ball a $127.9 million contract for the
               Operational Land Imager, part of the Landsat Data Continuity Mission.20 In 8
               of 9 award-fee periods, the contracting officer authorized a total of $627,765
               in incorrect interim payments.

             o In March 2005, NASA awarded Ball a contract valued up to $100.2 million
               for the Global Precipitation Measurement Microwave Imager.21 In 8 of
               14 award-fee periods, the contracting officer authorized a total of $373,302 in
               incorrect interim payments.

  For service contracts, we found provisional payment calculations that were inconsistently
  applied and not in compliance with NASA FAR Supplement limitations. For example:

             In September 2002, NASA awarded an $857.5 million contract to Boeing Space
              Operations to perform checkout, assembly, integration, and processing activities
              for major programs, including the International Space Station. The contracting
              officer authorized a total of $912,925 in provisional award payments that
              exceeded the 80 percent threshold in 8 of 19 award-fee periods.

             In July 2002, NASA awarded a $109.3 billion contract to Lockheed Martin Space
              Operations to provide scientific, engineering, and technical services for
              astrobiology and space research. The contracting officer authorized a total of
              $344,308 in provisional payments that exceeded both the prior period’s score and
              the 80 percent threshold in 3 of 17 award-fee periods.


Agency Lacks Internal Controls to Check Accuracy of Award-fee
  Payments

  We found NASA lacked adequate controls to monitor the accuracy of provisional and
  interim payment calculations in award-fee contracts. Among other things, Headquarters
  (HQ) Procurement officials do not periodically review interim and provisional payments
  to determine whether contracting officers are accurately applying the formulas. In
  addition, we found errors in examples used by HQ Procurement personnel to calculate
  provisional and interim payments. Specifically, when we asked for an explanation of
  how the end-item provisional payments should be calculated, the Procurement official
  incorrectly calculated provisional scores for end-item contracts by using 80 percent of the
  amount earned in the prior period as opposed to the percentage awarded as required by
  the NASA FAR Supplement. Because the amounts available for each period can vary


  20
       The Landsat Program is a series of Earth-observing satellite missions jointly managed by NASA and the
       U.S. Geological Survey. The first satellite launched in 1972 and the latest satellite in the series, the
       Landsat Data Continuity Mission, launched in February 2013.
  21
       This instrument is part of the Global Precipitation Measurement mission, a satellite that will measure
       global precipitation scheduled to launch in February 2014.



REPORT NO. IG-14-003                                                                                              11
                                                                                            RESULTS



     and the earned amounts are based on a percentage of the amount available for the period,
     using the wrong formula can result in provisional payments that are substantially higher
     or lower than what the NASA FAR Supplement allows. When we raised the issue of
     complicated award-fee formulas with HQ Procurement officials, they conceded that the
     process is overly complex and may be subject to misinterpretation.


Department of Defense Prohibits Provisional Award-fee Payments

     The NASA FAR Supplement permits provisional award-fee payments; however, the FAR
     is silent on the option and neither prohibits nor expressly authorizes the use of provisional
     award-fee payments.

     In February 2011, the Department of Defense (DOD) published a final rule amending the
     Defense Federal Acquisition Regulation Supplement to prohibit award-fee payments
     prior to completion of an end-of-period performance evaluation. DOD concluded that
     until a contractor’s performance has been evaluated, agency contracting officials cannot
     ensure that the contractor’s performance merits an award fee. The DOD final rule is
     intended to protect the taxpayer's interest in the event a contractor fails to meet
     performance expectations. Furthermore, in our judgment eliminating provisional
     payments could simplify award-fee calculations and reduce the number of erroneous
     payments.


Recommendations, Management’s Response, and Evaluation of
  Management’s Response

     To improve the accuracy of award-fee payments to contractors, we made the following
     recommendations to the Assistant Administrator for Procurement:

     Recommendation 1. Simplify the mathematical formulas used to calculate interim and
     provisional payments and update the NASA FAR Supplement accordingly.

        Management’s Response. The Assistant Administrator non-concurred, stating that
        although the application of the formulas can be confusing without proper training, the
        formulas are not overly complex and ensure the proper payments are made over the
        life of the contract regardless of situation or rating.

        Evaluation of Management’s Response. We continue to believe that the formulas
        are overly complex and lead to unnecessary errors. As discussed in our report, one
        HQ Procurement Official we spoke with acknowledged the complexity of the
        formulas and we identified errors we believed were caused by that complexity,
        including in a presentation designed to explain how to apply the formula for end-item
        provisional payments. Moreover, we found that contracting officers incorrectly
        calculated provisional and interim award-fee payments in more than half of the


12                                                                           REPORT NO. IG-14-003
RESULTS



      contracts we reviewed (26 of 45) – evidence that the formulas currently used are too
      complex. In his response, the Associate Administrator provided no substantive
      reason why the formulas could not be simplified, nor did he propose an alternative for
      ensuring future payment calculations are accurate. Accordingly, this
      recommendation is unresolved.

  Recommendation 2. Require the same formula be used for service and end-item
  contracts and update the NASA FAR Supplement accordingly.

      Management’s Response. The Assistant Administrator non-concurred, stating that
      the Office of Procurement had previously researched using the same formula for both
      types of contracts and determined that doing so would not ensure proper provisional
      award-fee payments under the end-item award fee concept.

      Evaluation of Management’s Response. The Associate Administrator did not
      explain why using the same formula for both types of contracts would not ensure
      proper payments and we see no reason why that should be the case. Accordingly, this
      recommendation is unresolved.

  Recommendation 3. Implement a process to test the accuracy of award-fee calculations
  on an ongoing basis.

      Management’s Response. The Assistant Administrator concurred, stating that the
      Office of Procurement will advise Center Procurement Office Cost/Price Analysts to
      conduct biannual reviews of provisional award-fee payment calculations.

      Evaluation of Management’s Response. Management’s proposed actions are
      responsive; therefore, the recommendation is resolved and will be closed upon
      completion and verification that award-fee calculations are being reviewed at the
      Centers.

  Recommendation 4. Direct contracting officers to review on-going award-fee contracts
  to ensure that calculations are appropriate and accurate for contract type and adjust
  contract payments as necessary.

      Management’s Response. The Assistant Administrator concurred, stating that the
      Office of Procurement will communicate with Center Procurement and Contracting
      Officers emphasizing the importance of correctly calculating provisional award-fee
      payments.

      Evaluation of Management’s Response. Although the Assistant Administrator
      concurred with our recommendation, his proposed actions do not meet its intent.
      Because more than half of the contracts in our sample contained errors, we believe it
      highly likely that other award-fee contracts contain similar errors. Consequently, we
      do not believe that simply emphasizing the importance of correctly calculating




REPORT NO. IG-14-003                                                                           13
                                                                                          RESULTS



        award-fee payments will be sufficient to address our concern. Accordingly, this
        recommendation is unresolved.

     Recommendation 5. Provide additional training to Agency contracting officers on
     proper calculation of award-fee payments.

        Management’s Response. The Assistant Administrator concurred, stating that the
        Office of Procurement will provide a one-time training webinar for Center
        Contracting Officers.

        Evaluation of Management’s Response. Management’s proposed actions are
        responsive; therefore, the recommendation is resolved and will be closed upon
        completion and verification of the corrective actions. However, we encourage the
        Assistant Administrator to also make the webinar available for viewing after the
        one-time training event.

     Recommendation 6. Consider eliminating provisional award-fee payments.

        Management’s Response. The Assistant Administrator non-concurred, stating that
        the Office of Procurement had previously considered but rejected the idea of
        eliminating provisional payments and continues to believe they are a valuable tool for
        negotiating fair and reasonable contracts. He also stated that it is not reasonable to
        expect contractors to wait until the end of an award-fee evaluation period before
        receiving any award fee.

        Evaluation of Management’s Response. Award fee is paid based upon observed
        performance over a period of time and is not a right afforded to contractors. In our
        opinion, it is in the Government’s best interest to ensure that contractors have
        performed adequately before they receive any award fee. Furthermore, considering
        the challenges we identified with contracting officers correctly calculating provisional
        award fee, we question the benefit of this tool and believe the Office of Procurement
        should reconsider this policy decision. Accordingly, this recommendation is
        unresolved.




14                                                                         REPORT NO. IG-14-003
RESULTS




                              NASA PRACTICE CIRCUMVENTS PROHIBITION
                                AGAINST “ROLLOVER” AND AWARDING OF
                                                     UNEARNED FEES

             Twenty-one of the 45 contracts we reviewed were for end-item deliverables, such as
             spacecraft observatories and instruments, and included an Award Fee for End-Item
             Contracts clause, informally referred to as the a “look-back clause.” For these
             contracts, NASA evaluates the contractor’s performance throughout the course of the
             contract and makes interim award-fee payments, but the amount of award fee the
             contractor ultimately receives is based upon demonstrated performance of the
             end-item deliverable. However, we found that NASA includes funds not awarded to
             the contractor in interim periods as part of the final award pool. We believe this
             practice circumvents FAR 16.401(e)(4) prohibiting rollover of unearned fees to
             subsequent performance periods. Moreover, we believe this rollover mechanism
             promotes a philosophy that as long as a mission provides good science data, cost and
             schedule overages will be disregarded.

             Our review included three end-item contracts for which NASA has completed final
             evaluations of the contractor’s performance. For one of these contracts, NASA paid
             approximately $835,470 in award fees drawn from amounts that were carried over
             from interim evaluation periods. We question the appropriateness of these payments.


Series of Failed Projects Leads NASA to Reexamine Award Fee
  Approach

  Between 1992 and 1999, NASA launched 16 major space missions, including several
  Earth-orbiting satellites, an asteroid rendezvous, and missions to Mars and the Moon.
  These missions coincided with NASA’s “Faster, Better, Cheaper” era when the Agency
  shifted its focus from costly, large satellites and space probes toward smaller, less
  expensive spacecraft.22 Costs for programs developed and launched during this era were
  capped and schedules were held to strict timeframes. While NASA experienced success
  with several of these missions, such as the Near Earth Asteroid Rendezvous Project and
  the Pathfinder Mission to Mars, a series of failures in Earth-orbiting projects and most
  prominently in the Mars Climate Orbiter and Mars Polar Lander Projects tainted NASA’s
  “Faster, Better, Cheaper” approach and drew significant criticism.23 In the end, only 10

  22
       Daniel Goldin became NASA’s Administrator in 1992 and pioneered the “Faster, Better, Cheaper”
       philosophy based on the assumption that NASA could cut costs while still delivering a wide variety of
       aerospace programs.
  23
       The Mars Climate Orbiter, which was intended to observe Mars’ seasonal climate and daily weather, was
       lost in September 1999 while attempting to establish an orbit around the planet. In December 1999, the
       Mars Polar Lander, a robotic spacecraft intended to land near the South Pole of Mars to study the
       planet’s layered polar terrain, was lost during its descent to the planet’s surface.


REPORT NO. IG-14-003                                                                                            15
                                                                                                          RESULTS



     of the 16 missions achieved their objectives, and NASA subsequently abandoned the
     “Faster, Better, Cheaper” philosophy for an approach that emphasizes performance-based
     contracting and tying incentives to acquisition outcomes.24

     Over the years, the NASA OIG and GAO issued reports criticizing NASA’s contract
     management practices. For example, in September 2000, the OIG found that the
     performance evaluation plan for NASA’s $868 million contract for the Earth Observing
     System Data Information Core System did not link award-fee payments to specific cost,
     schedule, and performance objectives.25 In January 2003, GAO characterized NASA’s
     contract management as a high-risk area, citing an ineffective process for overseeing
     contractor activities and a lack of emphasis on results, product performance, and cost
     control.26 Furthermore, in September 1999 and August 2009, both organizations made
     recommendations aimed at moving NASA toward emphasizing results and linking
     award-fee payments to final performance.


NASA Develops the Award Fee for End-Item Contracts Clause as a
 Way to Emphasize Performance Outcomes

     In October 1996, NASA revised its FAR Supplement to include Section 1852.216-77,
     “Award Fee for End-Item Contracts.” Informally referred to as the “look-back clause,”
     the Section provides that only the last evaluation is final on end-item contracts where the
     true quality of contractor performance cannot be measured until the product is delivered.
     Although NASA performs interim evaluations of the contractors’ performance, these
     evaluations are superseded by the final determination made at contract completion. The
     final evaluation may result in the contractor retaining fees previously awarded or
     receiving a lower or higher award fee. Thus, the final evaluation provides NASA the
     opportunity to make an award-fee decision based on actual quality, total cost, and ability
     to meet the contract schedule when the final product is delivered.


Federal Acquisition Regulations Prohibit Rollover of Award Fees

     The FAR defines award fee rollover as the process of transferring unearned award fees
     from one evaluation period to a subsequent evaluation period. Prior to October 14, 2009,
     the FAR allowed rollover of unearned award fees. However, recognizing that this rule
     could serve as a disincentive to consistent contractor performance throughout the entire
     contract, Federal policymakers revised the FAR on October 14, 2009, to prohibit the

     24
          Performance-based contracting involves structuring all aspects of an acquisition around the purpose of
          the work to be performed as opposed to either the manner by which the work is to be performed or broad
          statements of work.
     25
          NASA OIG, “Consolidated Space Operations Contract – Cost-Benefit Analysis and Award Fee
          Structure” (IG-00-043, September 20, 2000).
     26
          GAO, “Major Management Challenges and Program Risks” (GAO-03-114, January 2003).



16                                                                                       REPORT NO. IG-14-003
RESULTS



  rollover of unearned award fees. This change prohibits the Government from making
  previously unearned award fee available to the contractor in a subsequent award period.


NASA’s Award Fee for End-Item Contracts Clause Circumvents the
 FAR Prohibition on Rollover Award Fees

  NASA’s award-fee policy for end-item contracts allows the entire award-fee pool,
  regardless of a contractor’s interim evaluation scores, to remain available at final
  evaluation. This policy allows NASA to adjust the final award fee based on the outcome
  of the deliverable, thereby allowing contractors a second chance to earn award fees
  previously denied in interim evaluations. For example, in a contract for a satellite NASA
  would conduct periodic evaluations of the contractor’s performance and assess interim
  award fees based on those assessments. At contract completion, NASA would once
  again examine the contractor’s performance. If the satellite fails or does not meet
  performance expectations, NASA might recover award fee amounts it previously paid.
  Conversely, if the satellite is successful NASA policy allows for the contractor’s final
  evaluation score to be applied against the entire award-fee pool, including amounts held
  back from the contractor during earlier assessments.

  NASA officials contend this process does not constitute “rollover” and therefore does not
  violate the FAR provision because the contractor does not actually “earn” interim award
  fee amounts, which are subject to forfeit at the end of the contract period. However, we
  believe this argument places form over substance because NASA’s policy allows
  contractors that receive less than the full amount of available award fees during an
  evaluation period due to unsatisfactory performance a second chance at award-fee
  dollars.

  While we recognize the intent behind the clause is to ensure the award fee a contractor
  ultimately receives is based upon demonstrated performance of an end-item deliverable at
  contract completion, we believe that the practice of including in the final award-fee pool,
  amounts a contractor did not earn in earlier periods is contrary to the FAR prohibition on
  rollover.


Award Fee for End-Item Contracts Clause Promotes “Hubble
 Psychology”

  In a September 2012 report, we described an attitude at NASA known as the “Hubble
  Psychology” – an expectation among some NASA personnel that projects that fail to
  meet cost and schedule goals will continue to receive additional funding and that
  subsequent scientific and technological success will overshadow any budgetary or




REPORT NO. IG-14-003                                                                            17
                                                                                                           RESULTS



     schedule problems that occurred during development.27 Project managers interviewed as
     part of the 2012 audit pointed out that although the Hubble Space Telescope greatly
     exceeded its original budget, launched years after promised, and suffered a significant
     technological problem that required costly repair missions, the telescope is generally
     viewed as a national treasure and its cost and performance issues have largely been
     forgotten. Based on the Hubble experience and that of other NASA projects, many
     interviewees expressed the belief that if a mission ultimately provides good science data,
     any previous cost and schedule overages will be forgiven. This phenomenon has resulted
     in a mindset among NASA managers that emphasizes technological and operational
     success over cost and schedule fidelity.

     Because the Award Fee for End-Item Contracts clause adds any unearned award fees
     from interim periods to the final award pool available to the contractor, the clause may
     promote NASA’s “Hubble Psychology.” A contract for the Advanced Technology
     Microwave Sounder (ATMS) Instrument we examined during this review illustrates the
     point.

     In December 2000, NASA awarded a $78.6 million contract to Aerojet General
     Corporation (Aerojet) for development of the ATMS Instrument on the National Polar-
     orbiting Operational Environmental Satellite System Preparatory Project.28 Table 4
     displays a summary of the relevant award-fee data from the Project’s periodic interim
     evaluations.




     27
          NASA OIG, “NASA’s Challenges to Meeting Cost, Schedule, and Performance Goals” (IG-12-021,
          September 27, 2012). While not attributable to a particular individual, the term “Hubble Psychology” is
          well known and used extensively throughout NASA.
     28
          The ATMS instrument provides sounding observations of atmospheric temperature and moisture profiles
          for civilian operational weather forecasting, as well as continuity of these measurements for climate
          monitoring purposes.



18                                                                                         REPORT NO. IG-14-003
RESULTS




                          Table 4. Aerojet Contract Interim Evaluations
                                                            Interim Performance
         Performance             Total Award Fee                 Assessment             Total Award Fee
            Period                  Available                 Percentage Score               Earned
               1                    $167,320                        92%                    $153,934
               2                     320,000                          77                    246,400
               3                     321,360                         69                     221,725
               4                     375,618                          52                       0a
              5/6                    748,516                         87                     647,466
               7                     314,258                          93                    292,260
               8                     314,258                         92                     289,117
               9                     314,258                          99                    311,115
              10                     315,706                         91                     285,714
              11                     399,569                          75                    299,677
              12                     388,895                         92                     358,646
              13                     364,925                          98                    356,379
           Event 2                   200,000                         75                     150,000
              14                     146,298                          98                    144,103
           Event 1                   100,000                         92                      92,000
              15                     248,473                         100                    248,473
         Critical Item               250,000                         93                     232,500
         Critical Item               500,000                         100                    500,000
         Critical Item               200,000                          0                         0
         Critical Item               500,000                         100                    500,000
             Total                 $6,489,454                       84%                  $5,329,509
  a
   According to the Aerojet Performance Evaluation Plan, no award fee shall be paid for an unsatisfactory
  rating of less that 61 percent.
  Source: NASA OIG analysis of award-fee data for the Aerojet contract.

      Although interim evaluations cited significant cost growth, management deficiencies,
      subcontract schedule delays, and milestone delays, in May 2012, NASA officials
      assessed the contractor’s performance for the ATMS instrument with a final, look-back
      evaluation score of 95 percent. They then applied this percentage to the entire
      $6,489,454 award-fee pool, resulting in a final award fee to the contractor of $6,164,980.
      As shown in Table 4, despite several interim periods in which the contractor earned
      scores well below 95 percent and an overall average rating of 84 percent – including two
      cases where the contractor received no award fee during a performance period – the
      contractor received a final evaluation rating of “excellent” and 95 percent of the total
      available award fee.




REPORT NO. IG-14-003                                                                                        19
                                                                                             RESULTS



Administration of Interim Evaluations Are a Significant Expense
  of Award-fee Contracts

     Award-fee contracts require significant technical and managerial oversight to continually
     monitor performance and communicate with the contractor. When contemplating
     whether to issue an award-fee contract, it is important to ensure that the administrative
     costs associated with managing the award-fee process do not outweigh the contract’s
     expected benefits. In 2001, NASA estimated an average cost to the Government of
     $38,700 per evaluation period for an award-fee contract, a rate that rises to $50,000 when
     adjusted for inflation in 2013. However, despite the time and effort required by
     Government officials to evaluate, document, and communicate contractor performance
     each evaluation period, under NASA’s current practices only the final evaluation
     determines the amount of fee the contractor ultimately receives – diminishing the
     investment made in administering the interim evaluations.


Performance Evaluation Plans Contain Criteria for Interim
  Evaluations but Not for the Final Evaluation

     Although all 45 contracts we reviewed included the criteria against which NASA would
     judge contractor performance during the course of the contract, only 1 of the 22 end-item
     contracts contained criteria specific to the final end-item evaluation. Contractors we
     spoke with confirmed they were not aware of the criteria NASA used for the final
     evaluation. For example, one contractor said it was unclear as to how NASA determined
     the interim scores, added or subtracted points based on the project’s final outcome, or
     determined the final rating through a separate assessment.

     Although the final evaluation is the primary driver of the contractor’s total award fee, we
     were unable to determine with certainty the criteria NASA uses as the basis for the final
     performance evaluation. Without criteria or standards for evaluating overall
     performance, NASA increases the risk that its final evaluations are arbitrary and lack a
     rational connection between contractor performance throughout the life of the project and
     the final award score. Further, the contractor has little insight into the factors that
     determine its final fee, thereby minimizing the intended purpose of award fee to
     incentivize contractors to improve performance.

     We first raised a concern over criteria used for final end-item evaluations in a
     September 2000 report in which we concluded that NASA could have awarded up to
     $14.1 million of look-back award fee to a contractor without an objective basis related to
     contractor performance. We recommended that the Associate Administrator for Space
     Flight direct the contracting officer to establish performance evaluation criteria for the
     final evaluation portion of the award-fee pool. Management non-concurred with our
     recommendation because it believed the existing provisions were in the Government’s
     best interest, but took corrective action that partially satisfied our recommendation by
     issuing a letter to the contractor establishing performance evaluation criteria for the final


20                                                                            REPORT NO. IG-14-003
RESULTS



  contract award fee. While this report examined only the Consolidated Space Operations
  Contract, we believe that all performance evaluation plans for end-item contracts should
  contain specific criteria for the final award-fee evaluation.


Alternatives for Protecting the Government Interest

  On February 14, 2011, DOD published a final rule amending the Defense Federal
  Acquisition Regulation Supplement to prohibit rollover of unearned award fee. In
  addition, the new rule required that 40 percent of the award-fee pool be available for the
  final performance evaluation. The intent of this rule is to incentivize the contractor
  throughout contract performance but also set aside a sufficient amount of the award-fee
  pool to protect the taxpayers’ interest in the event a contractor fails to meet final
  contractual obligations.


Recommendations, Management’s Response, and Evaluation of
  Management’s Response

  To improve NASA’s management of award fees for end-item deliverable contracts, we
  made the following recommendations to the Assistant Administrator for Procurement:

  Recommendation 7. Revise NASA FAR Supplement 1852.216-77 so that award fees
  not earned in interim evaluations are not available to contractors at the end of contract
  performance or use the end-item contract final evaluation only for downward adjustments
  following catastrophic events or failures. Alternatively, NASA should designate a
  specific percentage of the total award pool that will be available for the final performance
  evaluation.

      Management’s Response. The Assistant Administrator non-concurred, stating that
      he disagrees with OIG’s understanding of the FAR concept of rollover. Specifically,
      he asserted that under the end-item award-fee concept, the contractor does not “earn”
      award fee until the final evaluation; therefore, there is no rollover of “unearned”
      award fee. The Assistant Administrator also stated that using the final evaluation
      only for downward adjustments would undermine the end-item award-fee concept
      because it would essentially make each interim award-fee evaluation a final
      evaluation and diminish the importance of having a quality product at the end of the
      contract. Furthermore, he stated that designating a percentage of the award fee for the
      final evaluation would not be in NASA’s best interest.

      Evaluation of Management’s Response. We acknowledge that interim award-fee
      payments are not final in the sense that NASA can adjust them at the end of contract
      performance. However, we believe that the Assistant Administrator’s definition of
      “earned” is too narrow and elevates form over substance. Neither the FAR nor the
      NASA FAR Supplement defines the terms “earned” or “unearned.” Although


REPORT NO. IG-14-003                                                                             21
                                                                                          RESULTS



        “earned” may mean to receive and retain as the Assistant Administrator suggests, the
        term may also be used to signify that an entity “merits” an award and in this context
        the word does not necessarily denote finality or permanence. Moreover, NASA’s
        own use of the term in contract documentation states, “The Government will
        determine the amount of award fee earned for periodic performance on the basis of a
        concurrent evaluation…” Furthermore, NASA’s Procurement Information Circular
        (PIC) 10-12, “Measuring Effectiveness of Award Fee Contracts,” describes a data
        field in the NASA Past Performance Database that requires contracting officers to
        input the “amount of award fee earned for the evaluation period.”

        In NASA’s process for end-item contracts, NASA conducts periodic evaluations of
        contractor performance and makes a judgment as to the amount of award fee merited
        by that performance during that period. It then pays the contractor some, all, or none
        of the award fee allocated to that period. In the final evaluation, NASA makes
        available to the contractor all of the award fee allocated to the entire contract, even
        amounts it determined the contractor’s performance did not merit previously during
        interim award periods. We continue to believe that this process is inconsistent with
        the FAR prohibition on rollover because it gives contractors a second chance to
        receive money the Agency initially determined their interim performance did not
        warrant.

        We recognize the intent of NASA’s Award Fee for End-Item Contracts clause is to
        protect the interest of the Government and taxpayer by ensuring that the final product
        delivered to NASA performs as intended. However, we believe there are other ways
        NASA can accomplish this goal without diminishing the incentive for contractors to
        perform consistently throughout the entire contract. Accordingly, this
        recommendation is unresolved.

     Recommendation 8. Issue guidance requiring performance evaluation plans to contain
     specific criteria for the final evaluation for end-item contracts.

        Management’s Response. The Assistant Administrator non-concurred, stating that
        the FAR and NASA award-fee guide both already require the Government to identify
        and communicate criteria by which the contractor will be assessed.

        Evaluation of Management’s Response. We found clear evaluation criteria in
        NASA’s performance evaluation plans for all periods of performance except the final,
        look-back evaluation – the one evaluation NASA uses to determine the final, total
        amount of award fee contractors will receive. If NASA continues to use some version
        of the Award Fee for End-Item Contracts clause, then similar to every other evaluation
        period and in accordance with the FAR NASA needs to identify in the performance
        evaluation plan and communicate to contractors the criteria by which they will be
        assessed in the final evaluation. Accordingly, this recommendation is unresolved.




22                                                                         REPORT NO. IG-14-003
RESULTS




                            QUESTIONABLE EVALUATION AND ACQUISITION
                               PRACTICES RESULT IN INEFFECTIVE USE OF
                                               AWARD-FEE CONTRACTS

             We found that NASA appropriately modified contracts to provide for a fixed fee
             when an award fee was no longer suitable. However, we identified seven
             questionable evaluation and acquisition practices that cause us to question the
             effectiveness of award-fee contracts at the Agency. Specifically, we found that
             award fees were incorrectly allocated to post-launch periods; award-fee periods were
             combined resulting in questioned payments to contractors; award fees paid to a
             contractor were not justified; contractors received an overall excellent rating when
             technical, cost, and/or schedule performance did not support the rating; cost control
             criterion was not evaluated at 25 percent as required; available award-fee pool was
             not defined or allocated; and failure to complete required analysis and documentation
             limited NASA’s assurance that the appropriate contract type was used.

             Due to these questionable practices, NASA paid approximately $2.4 million in
             excess award fees on the 45 contracts we reviewed. We also determined that NASA
             expended approximately $250,000 evaluating contracts for which performance
             objectives were undefined or for which it had not determined that an award-fee
             contract was the most beneficial type of contract for the services provided.


Contracts Appropriately Changed from Award Fee to Fixed Fee

  We found that for 2 of the 45 contracts we reviewed, award fees were not appropriate for
  incentivizing contractor performance. The services provided by these contractors related
  to ensuring public safety and health by addressing different types of emergencies. NASA
  also questioned the use of award-fee contracts for these two contracts and, in our opinion,
  appropriately modified the contracts to provide for a fixed fee.

  In February 2006, NASA awarded a $31.1 million contract to Consolidated Safety
  Services Incorporated for professional services related to occupational safety, industrial
  hygiene, and medical support programs at Ames Research Center. The acquisition plan
  for the contract documented that the services could not be performed on a fixed-price
  basis due to the uncertainty of requirements and the contract was structured as a
  cost-plus-award-fee vehicle.29 In January 2010, NASA officials converted the contract to
  a cost-plus-fixed-fee contract because the contractor had consistently received
  “excellent” ratings and therefore incentives were no longer necessary and because the

  29
       FAR Subpart 16.301-2, “Cost Contracts,” indicates that a cost contract is appropriate for use when
       uncertainties involved in contract performance do not permit costs to be estimated with sufficient
       accuracy to use any type of fixed-price contract.



REPORT NO. IG-14-003                                                                                        23
                                                                                                             RESULTS



     administrative costs associated with a cost-plus-award-fee contract were much higher
     than with a cost-plus-fixed-fee contract.

     In June 2006, NASA awarded a $7.3 million contract to Wackenhut Services,
     Incorporated (Wackenhut) for emergency preparedness management and other safety
     services. We questioned whether responding to emergencies should be an award-fee-
     based activity and how such fees would contribute to the contractor successfully and
     safely performing its job. NASA officials determined that this fire and security service
     contract did not warrant an award-fee contract and indicated that the subsequent service
     contract would be a firm-fixed-price vehicle.


Award Fee Incorrectly Allocated to Post-Launch Periods

     NASA awarded Orbital Sciences Corporation (Orbital) a $30 million contract for the
     Glory Observatory Mission in June 2004.30 We found that the contract included an
     incorrectly structured award-fee pool that allocated a portion of the award fee to post-
     launch contract periods. The award fee was designed to motivate contractor performance
     prior to launch; therefore, the total award-fee pool should have been allocated across the
     prelaunch contract periods.

     NASA management identified the error late during contract performance and executed a
     contract modification reallocating the post-launch award fee of $900,000 to the final
     prelaunch period. By doing this, the available award fee for the final prelaunch period
     increased to $1,574,094 – greatly exceeding the amount available in the previous
     11 award-fee periods, which ranged between $184,538 and $576,682. If the award fee
     had been allocated correctly at contract award across the 12 award-fee periods, we
     calculated the contractor would have earned $63,680 less than NASA eventually paid.
     We believe it would have been more appropriate for NASA to correct its error by
     reallocating the post-award fee across all 12 prelaunch award periods and applying the
     percentages earned for each of the completed periods to the amount of fee reallocated to
     the period.


Award-fee Periods Combined Resulting in Questioned Payments
 to Contractors

     We identified two end-item contracts in which NASA contracting officers deferred
     award-fee evaluations to allow contractors the opportunity to resolve unsatisfactory
     performance that otherwise would have resulted in the contractor receiving no or a
     reduced award fee in that period. In these cases, contracting officers gave the contractors

     30
          The Glory mission was a research satellite designed to orbit the Earth and collect data on the properties
          of aerosols and black carbon in the Earth’s atmosphere. The satellite was lost in a launch failure mishap
          in March 2011.



24                                                                                          REPORT NO. IG-14-003
RESULTS



  an opportunity to improve their poor or unsatisfactory performance and receive an award
  fee based on the combined award fee available over two periods. This resulted in NASA
  paying the contractors $323,733 and $353,130 more than they would have earned had
  NASA evaluated performance during the award-fee periods separately in accordance with
  the performance evaluation plan.

  Specifically, in December 2000, NASA awarded Aerojet a $78.6 million contract for
  development of the ATMS instrument. For the award-fee period July 1 through
  December 31, 2002, NASA rated the contractor’s performance as “poor/unsatisfactory”
  resulting in no award-fee payment. For the following period (January 1 through June 30,
  2003), NASA also would likely have rated the contractor’s performance as “poor” due to
  schedule and technical performance deficiencies; however, rather than award a second
  consecutive zero rating, NASA combined two evaluation periods (each with $374,258 in
  available award fees). After the combined period ended on December 31, 2003, NASA
  officials rated the contractor’s performance at 86.5 percent and applied that percentage to
  the combined award-fee pool of $748,516, for an award fee of $647,466. In our opinion,
  by doing this NASA overpaid the contractor $323,733.

  NASA also delayed evaluation of contractor performance on the Glory contract.
  Specifically, NASA deferred evaluation of Orbital’s performance for the period
  November 1, 2008, through April 30, 2009, deferring a decision on $569,565 in available
  award fees to the next period (May 1 through October 31, 2009) to allow Orbital time to
  resolve technical issues with the Maxwell Single Board Computer.31 Available award
  fees for the two periods were combined for a total of $939,295. In the combined
  evaluation period, Orbital received a score of 62 percent resulting in an award fee of
  $582,363. We consider $353,130 (62 percent of the deferred period’s available award fee
  of $569,565 earned in the combined period) to be in excess of what the contactor would
  have earned if the periods were not combined.

  Because NASA chose to delay the evaluations of two contractors’ unsatisfactory
  performance to subsequent periods, we question $676,863 in award fees paid. Moreover,
  combining evaluation periods during periods of project instability in order to enable
  contractors to maximize receipt of award fees undercuts the rationale and motivational
  impact that supports the use of award-fee contracts in the first place.


Award Fees Paid to Contractor Not Justified

  As previously described, in June 2006, NASA awarded Wackenhut a $7.3 million
  award-fee contract for fire protection services. However, NASA did not finalize the
  performance evaluation plan, appoint an FDO, or appoint a Performance Evaluation
  Board until the start of the third evaluation period – more than 13 months after initiation
  31
       The Glory Mission was impacted by the unreliable low production yield of the Maxwell Single Board
       Computer. In June 2009, NASA decided to replace the computer with another model, which delayed the
       launch from June 2009 to November 2010 and increased costs.



REPORT NO. IG-14-003                                                                                        25
                                                                                                        RESULTS



     of the contract. As a result, no evaluation of Wackenhut’s performance for the first two
     periods was completed. Ultimately, the FDO and the Board agreed to pay Wackenhut
     100 percent of the available award fees for the first two performance periods, or
     $417,727. Because NASA did not evaluate Wackenhut’s performance during these
     periods, we deem this award payment unsupportable.


Overall “Excellent” Rating Given Despite Technical Issues, Cost
  Overruns, and/or Schedule Delays

     According to the NASA Award Fee Contracting Guide, a contractor must provide
     exceptional performance – excellent cost, schedule, and technical management – in order
     to earn an overall “excellent” score (91-100) for an evaluation period. The NASA FAR
     Supplement states that in order to be rated “excellent” overall, a contractor should be
     under cost, on or ahead of schedule, and providing outstanding technical performance.
     We identified two instances in which contractors received an overall “excellent” rating
     despite experiencing cost overruns and earned a “very good” score (81-90) in technical
     performance.

     In September 2002, NASA awarded TRW, Inc., acquired by Northrop Grumman in 2002,
     an $825 million contract as part of the James Webb Space Telescope Project. Northrop
     Grumman earned “excellent” ratings of 94 percent, 93 percent, and 91 percent for three
     separate evaluation periods. However, during two of the three periods the contractor’s
     overall technical performance was rated as “very good,” thereby disallowing an overall
     excellent rating. Additionally, in one of the three periods rated as “excellent,” the
     evaluation stated that the contractor was experiencing cost overruns. Northrop Grumman
     earned award fees of $795,286, $2,341,998, and $9,849,921 for these three periods,
     resulting in questioned award fees of $169,499 to the company.

     In September 2007, NASA awarded Lockheed Martin Corporation (Lockheed) a
     $178 million contract for the Solar UltraViolet Imager in the Geostationary Operational
     Environmental Satellites (GOES) Program.32 Lockheed earned ratings of 91 percent for
     three separate periods and was rated as “excellent” overall despite receiving a “very
     good” rating for either technical or cost performance for all three periods. The company
     received $1,112,993, $1,435,719, and $1,448,800 in award fees for these three periods.
     The FDO’s letters and evaluations referenced cost overruns and ratings below “excellent”
     for technical and schedule performance. Again, we believe that the highest possible
     score for these periods was “very good” at 90 percent, and that therefore the company
     received $33,555 in questioned award fee.




     32
          GOES carries Earth and space observing instruments, which provide data used by the National Weather
          Service. The Solar UltraViolet Imager is a nonprimary instrument on GOES-R.



26                                                                                      REPORT NO. IG-14-003
RESULTS



Cost Control Criterion Not Evaluated at 25 Percent as Required

  Cost control is an objective measurement of the contractor’s success in controlling costs
  measured against the estimated cost of the contract. The NASA FAR Supplement
  requires a cost control evaluation factor in all award-fee contracts weighted at no less
  than 25 percent of the total weighted evaluation factors. NASA’s Award Fee Contracting
  Guide states that cost control should always be a substantial evaluation factor and when
  percentage weights are used the cost control factor will be at least 25 percent of the total
  award fee. We identified two contracts in our sample in which NASA did not effectively
  employ cost control as a performance measure.

  In the ATMS support contract with Aerojet, the performance evaluation plan included
  two factors – program management and milestone and schedule management – with each
  weighted at 50 percent. The plan did not include cost control as a separate evaluation
  factor. NASA paid total award fees on this contract of $4,086,584. Because cost control
  was not considered, in our judgment 25 percent or $1,021,646 of the award fee is
  unsupported.

  Similarly, in April 2009, NASA awarded Northrop Grumman an approximately
  $890,000 task order to perform research and development of technology maturation of
  advanced flight controls. The performance evaluation plan included three performance
  evaluation factors: technical performance evaluated at 75 percent, management and
  schedule at 20 percent, and cost at 5 percent. The award fees paid on the contract were
  $90,450. Because NASA weighted cost control at less than 25 percent, in our judgment
  $18,090, or 20 percent, of the $90,450 award fees paid are unsupported.


Available Award-fee Pool Was Not Defined or Allocated

  According to the FAR, all award-fee contracts will be supported by a performance
  evaluation plan that establishes the procedures for evaluating award fees. Performance
  evaluation plans shall define the total amount in the award-fee pool and how the pool is
  allocated across each evaluation period. We identified three contracts in which the
  award-fee pool was not defined or allocated until several months into the first evaluation
  period. Based on our calculations, NASA expended $150,000 evaluating contractors who
  were unaware of their performance objectives.

  For example, in September 2006 NASA awarded MPC Products Corporation a
  $1.2 million contract for the Stratospheric Observatory for Infrared Astronomy (SOFIA)
  cavity door drive system.33 The first award-fee period under the contract was
  September 16, 2006, through March 31, 2007. Although, the performance evaluation

  33
       SOFIA is a uniquely modified jetliner with an internally mounted telescope used by scientists to gather
       and analyze infrared light to understand how stars and planets are formed and what makes up the
       environment around the massive black hole at the center of the Milky Way Galaxy.



REPORT NO. IG-14-003                                                                                             27
                                                                                            RESULTS



     plan noted that the maximum award fee was to be provided, the amount of award fee
     available for the periods was not defined until March 16, 2007.


Failure to Complete Required Cost-Benefit Analysis Limits
  Assurance that NASA Used Appropriate Contract Type

     A wide selection of contract types is available to the Government in order to provide
     needed flexibility in acquiring goods and services. Contract type is generally determined
     based on a consideration of risk to the Government and the contractor. Effective June 29,
     2007, the NASA FAR Supplement requires contracting officers to perform and document
     a cost-benefit analysis of the expected benefits of award-fee contracts versus the
     administrative costs of managing such contracts, including consideration of the amount of
     planning required to implement an incentive contract and the amount of additional
     resources required for monitoring and determining awards.

     We found 2 contracts in our 45-contract sample for which NASA did not complete the
     required cost-benefit analysis. Ames Research Center awarded both classified task orders
     on April 15, 2008: one to McDonnell Douglas for $2,821,246 and the other to Northrop
     Grumman Systems Corporation for $889,910.

     As a result, NASA officials did not justify the cost-effectiveness of using a cost-plus-
     award-fee contract in these two cases. As discussed previously, NASA spends
     approximately $50,000 to evaluate, document, and communicate contractor performance
     during each award-fee evaluation period. These contracts had two award-fee periods that
     we reviewed – evaluations that cost NASA approximately $100,000 to conduct. By not
     completing a cost-benefit analysis prior to contract award, NASA did not ensure that
     cost-plus-award-fee contracts were the most cost effective or appropriate contract type
     for these acquisitions.


Recommendation, Management’s Response, and Evaluation of
  Management’s Response

     Recommendation 9. To improve NASA’s administration of award-fee contracts, we
     recommended that the Assistant Administrator for Procurement reemphasize or issue
     additional guidance, as applicable, prohibiting the combination of award-fee periods,
     reemphasizing that award fees shall be commensurate with the work performed, setting
     forth the criteria that must be met to receive an overall rating of excellent, establishing
     that the evaluation of cost shall be at least 25 percent of the total evaluation weighting,
     and the importance of completing the required cost-benefit analysis prior to contract
     award.

        Management’s Response. The Assistant Administrator concurred, stating that the
        NASA FAR Supplement and award fee policy is and will continue to be emphasized


28                                                                            REPORT NO. IG-14-003
RESULTS



      through training presentations and teleconference calls with Center procurement
      personnel.

      Evaluation of Management’s Response. We encourage the Assistant Administrator
      to make the results of this report a discussion topic in the training presentations and
      teleconference calls. Management’s proposed actions are responsive; therefore, the
      recommendation is resolved and closed.




REPORT NO. IG-14-003                                                                            29
                                                                                                              RESULTS




                            FAILURE TO ADEQUATELY COLLECT AND ANALYZE
                                       DATA HINDERS NASA’S ABILITY TO
                                     MEASURE AWARD-FEE EFFECTIVENESS

                NASA maintains a database that includes contracting officers’ evaluations describing
                how award-fee contracts motivated contractor performance and enhanced contract
                objectives. We reviewed 245 of these evaluations and found that 143 did not satisfy
                FAR requirements, NASA FAR Supplement requirements, or NASA Office of
                Procurement guidance. Specifically, they did not clearly explain whether the use of
                award fees was a positive factor in motivating contractor performance or if specific
                acquisition objectives were enhanced by their use. NASA’s failure to collect quality
                data has impaired its ability to analyze and measure the effectiveness of current
                award-fee contracts and reduced its ability to correct deficiencies and improve future
                contract sourcing decisions.


Federal and NASA Acquisition Regulations Revised to Ensure
  Award-fee Contracts Link Fees to Acquisition Outcomes

     On October 14, 2009, the FAR was revised to implement public laws concerning linkage
     of award and incentive fees to acquisition outcomes.34 These statutes require, among
     other things, that Federal agencies collect relevant data on award and incentive fees paid
     to contractors and evaluate the effectiveness of award fees in improving contractor
     performance. Specifically, the implementing language of FAR 16.401(f), “Incentive and
     Award Fee Data Collection and Analysis” states:

                Each agency shall collect relevant data on award fees and incentive fees paid to
                contractors and include performance measures to evaluate such data on a regular basis to
                determine effectiveness of award and incentive fees as a tool for improving contractor
                performance and achieving desired program outcomes. This information should be
                considered as part of the acquisition planning process . . . in determining the appropriate
                type of contract to be utilized for future acquisitions.

     NASA implemented the requirements of the FAR change by incorporating new data input
     and evaluation fields into the NASA Past Performance Database for completion by the
     contracting officer on all award-fee contracts.35 NASA’s database was superseded by the
     introduction of the Federal-wide Contractor Performance Assessment Reporting System
     in July 2010, which was designated as the Federal repository for reporting of contractor
     performance information. Consequently, in May 2011, NASA discontinued the Past
     Performance Database.

     34
          Public Law 109-364, Section 814 and Public Law 110-417, Section 867 are both entitled “Linking of
          Award and Incentive Fees to Acquisition Outcomes.”
     35
          NASA PIC 10-12, “Measuring Effectiveness of Award Fee Contracts,” August 26, 2010.



30                                                                                           REPORT NO. IG-14-003
RESULTS



  In August 2011, the Agency revised the NASA FAR Supplement to comply with FAR
  guidance on data collection and analysis of incentive and award-fee contracts by
  requiring that contracting officers input award-fee evaluation information, including an
  evaluation of how using an award-fee contract motivated contractor performance and
  enhanced contract objectives, in NASA’s Award Fee Evaluation System (AFES).36
  AFES is a NASA database that has no direct relationship to or interface with the
  Contractor Performance Assessment Reporting System.


NASA Failed to Collect Quality Award-fee Data

  NASA’s collection of the required award-fee data does not comply with FAR
  requirements. Specifically, the award-fee data input to AFES was not of sufficient
  quality to determine if the use of award fees was (1) a positive factor in motivating
  contractor performance or (2) if specific acquisition objectives were enhanced by the use
  of past and current award-fee contracts. We found the questions contracting officers are
  required to answer are not objective and in our opinion did not provide an explicit link
  between the contractor’s performance on cost, schedule, and technical performance for
  each specific award-fee period and the subsequent award fee earned. The two AFES
  questions are:

            “Did the use of award fee motivate the contractor’s overall cost, schedule, and
             technical performance as measured against contract requirements in accordance
             with the criteria stated in the Award Fee Plan?37 Please explain.”

            “Were the objectives enhanced by using an award-fee contract as stated in the
             determination and findings required at FAR 16.401(f)? Please explain.”

  We reviewed the February 2013 AFES award-fee data and found the information
  provided by the contracting officers for most contract periods was not specific to the
  relevant contract period or was not directly responsive to the questions. Specifically, we
  found 44 percent of the responses did not explain what aspect of the contractor's
  performance improved due to the award-fee process and 49 percent did not discuss
  whether the expected benefits cited in the initial award-fee determinations and findings
  were realized. In our opinion, these responses did not provide the information necessary
  to link contractor performance to the associated award fee.

  For example, in response to the question concerning the use of award fee motivating a
  contractor’s overall cost, schedule, and technical performance as measured against the
  contract requirements, one contracting officer responded that the contractor was “actively
  pursuing high numerical scores in their evaluation plan by meeting or exceeding the
  requirements in the contract.” However, the contracting officer did not explicitly state

  36
       NASA Procurement Notice 04-64, “Contractor Performance Information” (August 26, 2011).
  37
       An award-fee plan is the same as a performance evaluation plan.



REPORT NO. IG-14-003                                                                            31
                                                                                                           RESULTS



     what aspect of the contractor’s performance improved due to use of the award fee process
     (i.e., cost, schedule, or technical).38

     One reason for such unhelpful responses may be that NASA provides no examples in the
     database to illustrate an acceptable response or to communicate the types of information
     the contracting officer is expected to provide. Consequently, we found that 58 percent of
     the contract periods in AFES were not fully compliant with the FAR, NASA FAR
     Supplement, or NASA Office of Procurement procedural guidance. Moreover, we found
     that only 33 percent of the contract periods in our audit sample that should have been
     entered in AFES were actually in the system. A summary of our results is included in
     Table 5.

     We reviewed the Contract Management Division’s documentation for the past 2 years
     and found that Procurement officials did not provide adequate analysis regarding the
     quality of the data retained in AFES. We believe AFES data should be reviewed
     periodically to ensure adequate data quality and facilitate timely correction of inaccurate
     data or responses to the questions. The focus of these data quality reviews should be on
     the adequacy of the contracting officers’ responses to the specific questions asked and the
     appropriate, timely correction of any deficiencies found.




     38
          For example, the contracting officer could have referenced Earned Value Management data to
          quantitatively show an improvement in cost and/or schedule data. The FAR requires use of Earned
          Value Management, which is a methodology for integrating project scope, schedule, and resources, and
          for objectively measuring performance and progress, on all major acquisition contracts and subcontracts
          valued at greater than $20 million.



32                                                                                         REPORT NO. IG-14-003
    RESULTS




                          Table 5. Review of AFES Data as of February 14, 2013
                                                                                   Number of
                   Number of           Number of             Number of              Contract
                    Contract            Contract              Contract             Award-fee             Percentage of
                   Award-fee           Award-fee             Award-fee            Periods Not             Award-fee
                    Periods             Periods              Periods Not         Required to be           Periods Not
     NASA          Entered in        Compliant with        Compliant with        Compliant with         Compliant with
     Center          AFES             Requirements          Requirements         Requirementsa             PIC 10-12
     Ames              11                   2                      4                    5                    36%
    Dryden             23                  17                      5                    1                      22
     Glenn              4                   0                      2                    2                      50
    Goddard            47                  30                     16                    1                      34
    Johnson            57                   2                     52                    3                      91
      JPL               3                   0                      3                    0                     100
    Kennedy            15                   3                     12                    0                      80
    Langley            15                   8                      7                    0                      47
    Marshall           37                  13                     24                    0                      65
     NSSC               2                   0                      2                    0                     100
    Stennis            31                  14                     16                    1                      52
     Total            245                  89                    143                   13                    58%
a
 Contract award-fee period was not required to be compliant with requirement because the contract was either awarded
prior to the implementation of PIC 10-12; was no longer a cost-plus-award-fee contract during the rating period; had no
cost-plus-award-fee elements performed during the rating period; or the contract evaluation period was less than the rating
period (i.e., 6 months).
Ames – Ames Research Center                                   Kennedy – Kennedy Space Center
Dryden – Dryden Flight Research Center                        Langley – Langley Research Center
Glenn – Glenn Research Center                                 Marshall – Marshall Space Flight Center
Goddard – Goddard Space Flight Center                         NSSC – NASA Shared Services Center
Johnson – Johnson Space Center                                Stennis – Stennis Space Center
JPL – Jet Propulsion Laboratory
Source: NASA OIG analysis of AFES database.


        NASA needs to improve its compliance with FAR requirements to collect, analyze, and
        ensure relevance of the data collected to assist in future award-fee contract decisions. As
        previously stated, NASA estimates that it expends approximately $50,000 to evaluate,
        document, and communicate contractor performance during each award-fee evaluation
        period. Therefore, we estimate that NASA expended approximately $7.2 million
        evaluating 143 contract periods that were not in compliance with requirements and for
        which they did not gather relevant management information for informed decision-
        making.




     REPORT NO. IG-14-003                                                                                            33
                                                                                       RESULTS



Recommendations, Management’s Response, and Evaluation of
  Management’s Response

     To improve NASA’s ability to evaluate the effectiveness of award-fee contracts, we
     made the following recommendations to the Assistant Administrator for Procurement:

     Recommendation 10. Provide examples to assist contracting officers in developing the
     types of analyses for entry into AFES.

        Management’s Response. The Assistant Administrator non-concurred, stating that
        instructions are clear in AFES and provided in PIC 10-12, and that contracting
        officers who need assistance can contact the Center AFES Super User or Help Desk.

        Evaluation of Management’s Response. Despite existing guidance and the
        availability of technical support, we found a substantial number of issues with
        contracting officers' AFES entries we believe could be remedied by providing
        contracting officers with examples. Accordingly, this recommendation is unresolved.

     Recommendation 11. Require contracting officers to document in AFES an explicit link
     between contract performance and the subsequent award fee to ensure the database
     provides useful data for evaluating contractor performance and to support management
     decisions on current or future award-fee contracts.

        Management’s Response. The Assistant Administrator non-concurred, stating that
        the Office of Procurement is collecting and analyzing data in accordance with
        recommendations developed to address concerns raised by GAO in 1999. The
        Assistant Administrator also pointed out that a March 2013 assessment found that
        NASA does collect data on award-fee contracts and has a method for identifying the
        effectiveness of award fees.

        Evaluation of Management’s Response. We do not dispute that NASA has a
        methodology for collecting and analyzing data submitted by contracting officers. Our
        issue is with the quality of the data entered and its usefulness in any evaluation of
        award fees as a tool for improving contractor performance. Furthermore, according
        to GAO personnel, they did not evaluate the quality of the data or the analysis, but
        simply confirmed that a methodology existed. We continue to believe that NASA
        needs to improve the quality of the data by requiring and ensuring that contracting
        officers provide an explanation of how award fees affected contractor performance.
        Accordingly, this recommendation is unresolved.




34                                                                       REPORT NO. IG-14-003
RESULTS



  Recommendation 12. Develop a process to improve monitoring and analysis of the
  information entered into AFES to ensure adequate data quality and compliance with the
  FAR, NASA FAR Supplement, and NASA Office of Procurement guidance and improve
  outcomes when using award-fee contracts.

      Management’s Response. The Assistant Administrator partially concurred, stating
      that Center Procurement Officers will be advised to biannually review AFES data for
      accuracy and completeness and include the results in Center self-assessments.

      Evaluation of Management’s Response. Management’s proposed actions are
      responsive; therefore, the recommendation is resolved and will be closed upon
      completion and verification of the corrective actions.




REPORT NO. IG-14-003                                                                        35
                                                                                            RESULTS




                                                       OTHER ISSUES OF CONCERN

            In 14 of 45 contracts reviewed, we identified six types of issues that negatively
            affected NASA’s award-fee process including that NASA contracting officials did
            not consistently maintain critical documentation of award-fee contracts to ensure
            they complied with established requirements. Maintaining complete and accurate
            information allows NASA to monitor the use and execution of award-fee contracts
            more effectively.

            Although we are not making formal recommendations regarding these issues, we are
            reporting them so that they may be addressed by the Assistant Administrator for
            Procurement.


Award-fee Contract Administrative Issues

     Technical Factor Did Not Consider Risk Management. We found two contracts in
     which the technical factor did not consider risk management. The first contract was
     awarded to the University of California, Santa Cruz in September 2003 for additional
     research capabilities under the University Affiliated Research Center Program with a
     contract value of approximately $120 million. The second contract was awarded to the
     Lockheed Martin Corporation in October 2001 for production of the Shuttle External
     Tank with a contract value of $1.1 billion. The NASA FAR Supplement requires that the
     technical factor include consideration of risk management (including mission success,
     safety, security, health, export control, and damage to the environment, as appropriate)
     unless waived at a level above the contracting officer with the concurrence of the project
     manager. The rationale for the waiver should be documented in the contract file.
     Because the technical factor did not consider risk management, NASA had no assurance
     that the contractors had a plan for identifying and measuring unknown risks, developing
     risk mitigation options, or monitoring and reassessing risk through the life of the contract.

     Poor Contract Documentation. We found four contracts that had poor or deficient
     documentation. For example, award-fee evaluation reports were not maintained for the
     Wyle Laboratories Incorporated contract. Performance monitors are required to track and
     document contractor performance, identifying strengths and weaknesses in performance
     for the period being evaluated. Performance Evaluation Boards (Boards) rely on the
     reports to make their performance recommendations to the FDO. Failure to create or
     maintain complete and accurate contract documentation could affect the quality of the
     performance evaluation process.

     Award Fee for End-Item Contracts Clause Not Included in Contract. We found one
     contract that did not include NASA’s Award Fee for End-Item Contracts clause as
     required by the NASA FAR Supplement. The contract was to Boeing North American,


36                                                                           REPORT NO. IG-14-003
RESULTS



  Incorporated in May 2002 for work associated with the Space Shuttle Main Engine with a
  contract value of over $1.1 billion. Because the clause was not included in the contract,
  NASA did not adequately communicate the limitations on interim and provisional
  payments to the contractor.

  Performance Evaluation Plans Not Approved or In Place Prior to First Award-fee
  Period. We identified two contracts in our review for which performance evaluation
  plans were not approved and three contracts where the plan was not in place prior to the
  first award-fee period. According to the FAR, all contracts with award fees shall be
  supported by a performance evaluation plan approved by the FDO. The plans should
  establish the evaluation criteria, methods for determining an award fee, methods for
  implementing any changes in plan coverage, and provide an organizational structure for
  award fee administration. The plans are essential to the effective and efficient oversight
  and monitoring of award-fee contracts.

  For example, we found a contract valued at more than $109 million awarded to Lockheed
  Martin Space Operations in July 2002 for scientific, engineering, and technical services
  that did not have the performance evaluation plan in place prior to the first award-fee
  period. The plans should be established prior to the start of the award-fee periods so both
  NASA and the contractor recognize the standards and criteria under which contractors
  will be evaluated.

  Performance Evaluation Board Not Appointed Prior to Start of Award-fee Periods.
  We found two contracts where the Board was not appointed prior to the first evaluation
  period. The first contract was to ADNET Systems, Incorporated in May 2006 for space
  and earth science data analysis with a contract value of approximately $206 million. The
  second contract was to ITT Corporation in October 2008 for space communications and
  network services with a value of approximately $195 million. The purpose of the Board
  is to evaluate the contractor’s overall performance for the award-fee evaluation periods,
  which leads to a recommended award-fee amount to the FDO.

  No Appointment Letter for Alternate Contracting Officer’s Technical
  Representative. We found one contract to Analex Corporation in January 2008 for
  environmental test and integration services with a value of up to $190 million that did not
  have an appointment letter for the alternate Contracting Officer’s Technical
  Representative (COTR). Contracting officers appoint qualified Government employees
  to act as their representative in managing the technical aspects of particular contracts.
  The technical organizations are responsible for ensuring that the individual they
  recommend as COTR possesses training, qualifications, and experience commensurate
  with the duties and responsibilities delegated by the contracting officer and the nature of
  the contract. The contracting officer must designate and authorize the COTR, in writing,
  to perform specific technical or administrative functions. Without an official
  appointment of the alternate COTR, NASA did not have someone to act as the technical
  liaison between the contracting officer and contractor during absences of the COTR.
  Ultimately, NASA had no assurance in the COTR’s absence that the contractor’s
  performance was properly monitored.


REPORT NO. IG-14-003                                                                            37
APPENDIXES




                                                                                     APPENDIX A


Scope and Methodology

  We performed this audit between May 2012 and September 2013 in accordance with
  generally accepted government auditing standards.39 The standards require that we plan
  and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
  basis for our findings and conclusions based on our audit objectives. We believe that the
  evidence obtained provides a reasonable basis for our findings and conclusions based on
  our audit objectives.

  The primary audit locations and contracts reviewed were determined based upon a
  statistical sample of contract obligations completed during FYs 2009 through 2011.
  Audit locations included Ames Research Center, Dryden Flight Research Center,
  Goddard Space Flight Center, NASA HQ, Johnson Space Center, Kennedy Space Center,
  Langley Research Center, and Marshall Space Flight Center.

  We were provided with a list of all contract obligations and award-fee contract
  obligations for FYs 2009 through 2011 from the Federal Procurement Data System-Next
  Generation to determine the population. We received the data by NASA Center
  separated by FY and compiled by all contracts and award-fee contracts. We then sorted
  the data by contract number, then modification number in order to identify unique
  contract numbers. The results were as follows:

         1. Of all contract and award-fee contract obligations (actions) made between
            FYs 2009 and 2011, there were 453 award-fee contract actions involving
            award-fee contracts for this period. This is equivalent to 9 percent of all contract
            actions (5,036) during this period.

         2. Award-fee contract actions accounted for 72 percent of all contract obligations
            during this period ($24.6 billion of $33.9 billion).

         3. The 453 award-fee contract actions involved 186 different (unique) contracts, or
            6.9 percent of all unique contracts (2,704). This constituted our audit universe.

  We then selected a simple random sample of 45 contracts with award fees from the
  universe of 186 contracts with obligations conducted between FYs 2009 through 2011.
  We used the attribute sample design with the method of selection (simple random



  39
       The audit was temporarily suspended from August 20, 2012, through September 21, 2012 to complete
       other audit priorities.



REPORT NO. IG-14-003                                                                                      39
                                                                                       APPENDIX A



     sample) being any contract with an award fee from FYs 2009 through 2011. We used an
     80 percent confidence level with 10 percent estimated attribute error rate and 5 percent
     desired precision or sampling error.

     To accomplish our objectives, we:

        Reviewed 502 of 557 award-fee evaluation periods for the contracts selected. We
         excluded 55 award-fee evaluation periods due to age or classification restrictions.

        Reviewed OMB Memorandum on “Appropriate Use of Incentive Contracts,”
         December 4, 2007.

        Reviewed FAR Subpart 16.4, “Incentive Contracts.”

        Reviewed NASA FAR Supplement Subpart 1816.4, “Incentive Contracts.”

        Reviewed “NASA Award Fee Contracting Guide,” June 27, 2001.

        Reviewed “Department of Air Force Award Fee Guide,” July 12, 2010, Revised
         August 13, 2010.

        Reviewed contract file documentation used to evaluate contractor performance
         including: Cost-Benefit Analyses, Performance Evaluation Plans, COTR
         Appointment Memorandums, Award Fee Evaluation Reports, FDO Letters, Award
         Fee Modifications, Contractors’ Self Evaluations, and Determination and Findings.

        Reviewed evaluation and payment processes to verify that (1) award fees were paid in
         accordance with the award-fee plan, and (2) award terms, when earned, were
         adequately explained and supported in accordance with the award-term incentive
         provisions of the contract.

        Interviewed contracting and program officials responsible for monitoring contractor
         performance and to gain an understanding of how they evaluated performance,
         determined adjectival ratings, and numerical scores.

        Interviewed NASA Procurement Policy officials to gain an understanding of NASA
         award-fee policies and procedures, and how guidance was implemented.

        Interviewed end-item and service contractors to ascertain their perspective on
         NASA’s use of award-fee contracts and how the contracts motivate their
         performance.

        Reviewed an extract of award-fee contract periods retained in NASA’s AFES on
         February 14, 2013. Compared the contract periods retained in AFES against the
         contracts randomly selected and included in our audit sample. Additionally, we
         compared data elements in AFES against FAR 16.401(f), “Incentive and Award Fee


40                                                                          REPORT NO. IG-14-003
APPENDIX A



      Data Collection and Analysis,” and NASA FAR Supplement 1842.1503(b),
      “Contractor Performance Information.”

  Use of Computer-Processed Data. To identify our audit universe, we used the Federal
  Procurement Data System-Next Generation. We did not specifically validate the
  accuracy of the data in the System, as the data is only as accurate as that entered by
  procurement staff. However, when reviewing contract files, we did not detect any issues
  with the data as entered. In addition, we used AFES to determine NASA’s compliance
  with FAR 16.401(f), “Incentive and Award Fee Data Collection and Analysis,” and
  NASA FAR Supplement 1842.1503(b), “Contractor Performance Information.” We
  compared the contract periods retained in AFES against the contracts randomly selected
  and included in our audit sample. Although we did not encounter any computer data
  reliability issues, we did identify the aforementioned internal control deficiencies.


Review of Internal Controls

  We reviewed and evaluated the internal controls associated with documenting the
  evaluation of performance, assigning adjectival ratings and numerical scores, and
  determining the final award-fee score. While we found deficiencies in all three areas, as
  discussed in this report, we found no incidents of fraud or illegal acts. Our
  recommendations, if implemented, should correct the weaknesses we identified.


Prior Coverage

  The NASA OIG issued six reports that were relevant to this audit. In addition, GAO
  issued five reports and one follow-up assessment of particular relevance, Department of
  Commerce OIG issued one report, and Department of Transportation OIG issued one
  report. Those unrestricted reports can be accessed at
  http://oig.nasa.gov/audits/reports/FY09, http://www.gao.gov,
  http://www.oig.doc.gov/Pages/Audits-Evaluations.aspx, and
  http://www/oig.dot.gov/audits/2010, respectively.

  NASA Office of Inspector General

  “Review of NASA’s Microgravity Flight Services” (IG-10-015, June 18, 2010).

  “NASA Should Reconsider the Award Evaluation Process and Contract Type for the
  Operation of the Jet Propulsion Laboratory” (IG-09-022-R, September 25, 2009).

  “Final Memorandum on Audit of the Stratospheric Observatory for Infrared Astronomy
  (SOFIA) Program Management Effectiveness” (IG-09-013, March 27, 2009).

  “Faster, Better, Cheaper: Policy, Strategic Planning, and Human Resource Alignment”
  (IG-01-009, March 13, 2001).


REPORT NO. IG-14-003                                                                          41
                                                                                    APPENDIX A



     “Consolidated Space Operations Contract – Cost-Benefit Analysis and Award Fee
     Structure” (IG-00-043, September 20, 2000).

     “Performance Evaluation Plan for the Earth Observing System Data and Information
     System Core System Contract” (IG-99-038, September 8, 1999).

     Government Accountability Office

     “General Government: Award Fee Contracts,” GAO Action Tracker, March 6, 2013
     (http://www.gao.gov/duplication/action_tracker/Award_Fee_Contracts/action1).

     “Application of OMB Guidance Can Improve Use of Award Fee Contracts”
     (GAO-09-839T, August 2009).

     “Federal Contracting: Guidance on Award Fees Has Led to Better Practices but Is Not
     Consistently Applied” (GAO-09-630, May 2009).

     “NASA Procurement: Use of Award Fees for Achieving Program Outcomes Should
     Be Improved” (GAO-07-58, January 2007).

     “DOD Has Paid Billions in Award and Incentive Fees Regardless of Acquisition
     Outcomes” (GAO-06-66, December 2005).

     “Major Management Challenges and Program Risks” (GAO-03-114, January 2003).

     Other Agencies

     “NOAA’s Cost-Plus-Award-Fee and Award-Term Processes Need to Support Fees and
     Extensions” (U.S. Department of Commerce OIG-12-027-A, May 2012).

     “Improvements in Cost-Plus-Award-Fee Processes are Needed to Ensure Millions Paid in
     Fees are Justified” (Department of Transportation OIG ZA-2010-092, August 2010).




42                                                                      REPORT NO. IG-14-003
APPENDIX B




                                                                            AUDIT UNIVERSE AND ISSUES BY
                                                                                   CENTER AND CONTRACT

          An ‘X’ denotes the issue(s) identified for each contract. A Description of Issues follows
          the chart.




                                                                                                                    Issue 10


                                                                                                                               Issue 11


                                                                                                                                          Issue 12


                                                                                                                                                     Issue 13


                                                                                                                                                                Issue 14
                          Issue 1


                                    Issue 2


                                              Issue 3


                                                        Issue 4


                                                                  Issue 5


                                                                            Issue 6


                                                                                      Issue 7


                                                                                                Issue 8


                                                                                                          Issue 9
              Contract                                                                                                                                                     Issues per
              Number                                                                                                                                                        Contract


             NAS2-02090   X                                                                                                               X                                    2
             NAS2-03144   X                                                                               X                                                                    2
            NNA05-AC42C   X                                                                                                                                                    1
            NNA06-AA01C   X                                                                                                                                                    1
Ames




            NNA06-CD65C                                 X                                                                                                                      1
            NNA07-CA29C   X                                                                                                                                                    1
            NNA08-BA33C                                                                         X                                                                              1
            NNA08-BA35C   X                                                 X                   X                                                                              3
            NNA08-BA97C                                                                                                                   X                                    1
             NAS4-00047   X                                                                                                                                                    1
Dryden




            NND06-PS01C   X                                                           X                                                   X                                    3
            NND07-PS02C                                                               X                                                                                        1
             NAS5-30384                                                                                                                                                        0
             NAS5-32314   X                                                                                                                                                    1
             NAS5-96090                                                                                                                                                        0
             NAS5-01089   X                   X                             X         X                                                   X                                    5
             NAS5-02200   X                                       X                                                                                                            2
            NNG04-EA00C   X                                                                                                                                                    1
            NNG04-HZ07C                                                                                                                                                        0
            NNG04-HZ24C   X         X         X                                                                                                                                3
Goddard




            NNG05-HY12C   X                                                                                         X                                                          2
            NNG06-EB68C                                                                                                                              X                         1
            NNG06-HX01C                                                                                                                                                        0
            NNG06-HX09C   X                                                                                                                                                    1
            NNG06-HX18C                                                                                                                                                        0
            NNG07-CA21C                                                                                                                                                        0
            NNG07-HW18C   X                                                                                                                                                    1
            NNG07-HW20C                                           X                                                                                                            1
            NNG08-CA01C                                                                                                                                         X              1




  REPORT NO. IG-14-003                                                                                                                                                         43
                                                                                                                                                                           APPENDIX B




                                                                                                                             Issue 10


                                                                                                                                        Issue 11


                                                                                                                                                     Issue 12


                                                                                                                                                                Issue 13


                                                                                                                                                                             Issue 14
                                Issue 1


                                          Issue 2


                                                    Issue 3


                                                              Issue 4


                                                                           Issue 5


                                                                                     Issue 6


                                                                                               Issue 7


                                                                                                         Issue 8


                                                                                                                   Issue 9
                Contract                                                                                                                                                                Issues per
                Number                                                                                                                                                                   Contract


              NNG08-HZ18C                                                                                                                                                                   0
              NNG09-DA01C                                                                                                                                       X                           1
              NNG10-WA14C       X                                                                                                                                                           1
 HQ




              NNH06-CE25C                                                                                                                                                                   0
              NAS15-10000                                                                                                                                                                   0
               NAS9-01056       X                                                                                            X
 Johnson




                                                                                                                                                                                            2
               NAS9-02078                                                                                                    X                                                              1
              NNJ06-VA01C       X                                                                                                                                                           1
              NAS10-02007       X                                                                                                                                                           1
 Kennedy




              NNK08-OC01C       X                                                                                                                                                           1
              NNK08-OO11C       X                                                                                                                                                           1
Langley       NNL09-AA04C       X                                                                                                                    X                                      2
               NAS8-97238       X                                                                                                                                                           1
 Marshall




               NAS8-00016       X                                                                                  X         X                                                              3
               NAS8-01140       X                                                                                                       X                                                   2
               NAS8-02060                                                                                                                                                                   0

                 Total          26        1         2         1             2        2         3         2         2         4          1            5          2            1             54


            Description of Issues
                   Number                                     Addressed In                                                              Issue
                           1                                            Finding 1              Miscalculation of payments
                                                                                               Award fee inappropriately allocated to post-launch
                           2                                            Finding 3
                                                                                               period
                                                                                               Award-fee periods combined to allow additional time
                           3                                            Finding 3
                                                                                               to better perform or earn additional fee
                                                                                               Award fee earned does not appear justified based on
                           4                                            Finding 3
                                                                                               evaluations
                                                                                               Overall excellent rating received when technical
                           5                                            Finding 3              performance rated lower, cost overruns, and/or
                                                                                               schedule delays
                            6                                    Finding 3                     Cost control not evaluated at a minimum of 25 percent
                            7                                    Finding 3                     Award-fee pool not defined or allocated
                            8                                    Finding 3                     Cost-Benefit Analysis not completed
                            9                                   Other Issues                   Technical factor did not consider risk management
                           10                                   Other Issues                   Poor contract documentation
                                                                                               Award Fee for End-Item Contract clause not included
                           11                                   Other Issues
                                                                                               in contract
                                                                                               Performance Evaluation Plans not approved or in place
                           12                                   Other Issues
                                                                                               prior to first award-fee period
                                                                                               Performance Evaluation Board not appointed prior to
                           13                                   Other Issues
                                                                                               start of award-fee periods
                  14                                            Other Issues                   No appointment letter for alternate COTR
 Source: OIG analysis.



  44                                                                                                                                               REPORT NO. IG-14-003
APPENDIX C




                                                                     INCORRECT PAYMENTS AND
                                                                           QUESTIONED COSTS

          The chart identifies the dollar value of the incorrect payments and questioned costs
          associated with each contract. Total differences are due to rounding.

                                                                      Award Fee for   Evaluation and
                                                      Incorrect         End-Item       Acquisition
               Contract      Estimated Costs and      Payments          Payments        Practices
                Number      Available Award Feesa    (Finding 1)       (Finding 2)     (Finding 3)      Total
              NAS2-02090             $313,116,972         $344,308                                              $344,308
              NAS2-03144               326,898,570          49,910                                                49,910
             NNA05-AC42C                26,504,564          16,108                                                16,108
             NNA06-AA01C                12,528,971           6,685                                                 6,685
Ames




             NNA06-CD65C                19,583,303                                           $417,727            417,727
             NNA07-CA29C               276,800,062          55,389                                                55,389
             NNA08-BA33C                 3,073,364
             NNA08-BA35C                   994,275           6,958                             18,090             25,048
             NNA08-BA97C                27,483,838
              NAS4-00047               178,265,747          27,845                                                27,845
Dryden




             NND06-PS01C                12,971,690          12,436                                                12,436
             NND07-PS02C                39,191,674
              NAS5-30384               199,785,351
              NAS5-32314               224,757,117         284,287                                               284,287
              NAS5-96090               237,651,633
              NAS5-01089               188,857,745       1,040,460         $835,470         1,345,379       3,221,310
              NAS5-02200             2,064,232,524          40,896                            169,499         210,395
             NNG04-EA00C               100,652,439         239,235                                            239,235
             NNG04-HZ07C               716,443,848
             NNG04-HZ24C                76,446,809         865,548                            416,810       1,282,358
             NNG05-HY12C               207,651,367         798,338                                            798,338
Goddard




             NNG06-EB68C               241,422,823
             NNG06-HX01C               106,297,736
             NNG06-HX09C                24,990,297          27,058                                                27,058
             NNG06-HX18C                83,000,000
             NNG07-CA21C               748,626,144
             NNG07-HW18C               182,210,684         992,860                                               992,860
             NNG07-HW20C               187,191,005                                             33,555             33,555
             NNG08-CA01C                46,109,283
             NNG08-HZ18C                16,584,770
             NNG09-DA01C               200,700,607
             NNG10-WA14C               125,670,000         124,932                                               124,932
HQ           NNH06-CE25C                19,866,726
              NAS15-10000           16,251,162,118
Johnson




              NAS9-01056               199,668,534          21,827                                                21,827
              NAS9-02078             1,136,695,426
             NNJ06-VA01C             8,740,745,075       3,987,921                                          3,987,921




 REPORT NO. IG-14-003                                                                                            45
                                                                                                               APPENDIX C




                                                                            Award Fee for   Evaluation and
                                                             Incorrect        End-Item       Acquisition
                   Contract        Estimated Costs and       Payments         Payments        Practices
                   Number         Available Award Feesa     (Finding 1)      (Finding 2)     (Finding 3)             Total
                 NAS10-02007                 881,778,167          912,925
 Kennedy




                                                                                                                            912,925
                 NNK08-OC01C                 665,467,034          271,643                                                   271,643
                 NNK08-OO11C                  49,109,686            8,262                                                     8,262
Langley          NNL09-AA04C                  51,882,444          222,790                                                   222,790
                  NAS8-97238               3,905,017,113       29,174,764                                                29,174,764
 Marshall




                  NAS8-00016               2,733,505,764       18,203,653                                                18,203,653
                  NAS8-01140               2,099,817,970        8,685,900                                                 8,685,900
                  NAS8-02060                 374,392,827
                     Total             $44,324,663,951       $66,422,940        $835,470         $2,401,060           $69,659,470
            a
             The estimated costs and available award fees are relative to the periods reviewed during the audit and may
            be different from the contract values cited in the body of the report. Contract values are the estimated costs
            and available fees at the time of contract award. Contract values may change throughout performance to
            account for additional work and definitization of cost overruns.

            Source: OIG analysis.




 46                                                                                               REPORT NO. IG-14-003
APPENDIX D




                       MANAGEMENT COMMENTS




REPORT NO. IG-14-003                         47
              APPENDIX D




48   REPORT NO. IG-14-003
APPENDIX D




REPORT NO. IG-14-003   49
              APPENDIX D




50   REPORT NO. IG-14-003
APPENDIX D




REPORT NO. IG-14-003   51
              APPENDIX D




52   REPORT NO. IG-14-003
APPENDIX D




REPORT NO. IG-14-003   53
                                                                               APPENDIX E




                                                        REPORT DISTRIBUTION

National Aeronautics and Space Administration

     Administrator
     Deputy Administrator
     Chief of Staff
     Assistant Administrator for Procurement
     NASA Advisory Council’s Audit, Finance, and Analysis Committee
     Ames Research Center Director
     Dryden Flight Research Center Director
     Glenn Research Center Director
     Goddard Space Flight Center Director
     Jet Propulsion Laboratory Director
     Johnson Space Center Director
     Kennedy Space Center Director
     Langley Research Center Director
     Marshall Space Flight Center Director
     Stennis Space Center Director
     NASA Shared Services Center Executive Director

Non-NASA Organizations and Individuals

     Office of Management and Budget
        Deputy Associate Director, Energy and Science Division
            Branch Chief, Science and Space Programs Branch
     Government Accountability Office
        Director, Office of Acquisition and Sourcing Management

Congressional Committees and Subcommittees, Chairman and
  Ranking Member

     Senate Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     Senate Committee on Commerce, Science, and Transportation
        Subcommittee on Science and Space
     Senate Committee on Homeland Security and Governmental Affairs
     House Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     House Committee on Oversight and Government Reform
        Subcommittee on Government Operations
     House Committee on Science, Space, and Technology
        Subcommittee on Oversight
        Subcommittee on Space


54                                                                    REPORT NO. IG-14-003
Major Contributors to the Report:
   Raymond Tolomeo, Director, Science and Aeronautics Research Directorate
   Diane Choma, Project Manager
   Gary Weishaar, Management Analyst, Team Lead
   Theresa Becker, Procurement Analyst
   L. Scott Collins, Auditor
   Gina Davenport, Auditor
   Frank Mazurek, OIG Associate Counsel (Eastern Region)




REPORT NO. IG-14-003                                                         55
                                                                                  NOVEMBER 19, 2013
                                                                        REPORT No. IG-14-003




                                                                                  OFFICE OF AUDITS

                                                                 OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY14/ to obtain additional copies of this report, or contact the
Assistant Inspector General for Audits at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Mr. Laurence Hawkins, Audit Operations and
Quality Assurance Director, at Laurence.B.Hawkins@nasa.gov or call 202-358-1543.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Audits.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Audits
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
